United States
Department of
Agriculture     Office of
                Inspector General
Office of
Inspector
General

No. 40

November 1998   Semiannual Report
                to Congress
                FY 1998—Second Half
The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis
of race, color, national origin, gender, religion, age, disability, political beliefs, sexual orientation, and marital or
family status. (Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative
means for communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s
TARGET Center at 202-720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building,
1400 Independence Avenue, SW, Washington, DC 20250-9410 or call (202) 720-5964 (voice or TDD). USDA
is an equal opportunity provider and employer.
                             United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


                                                                           October 27, 1998

Honorable Dan Glickman
Secretary of Agriculture
Washington, D.C. 20250

Dear Mr. Secretary:

I am pleased to submit the Office of Inspector General’s Semiannual Report to Congress
summarizing our activities for the 6-month period which ended September 30, 1998.

During this period, our audits and investigations yielded approximately $54.9 million in
recoveries, collections, restitutions, fines, claims established, administrative penalties, and
costs avoided. Management agreed to put an additional $5.3 billion to better use. We also
identified $36.5 million in questioned costs that cannot be recovered. Our investigations
produced 488 indictments and 333 convictions.

We are continuing to report outstanding results in our three Presidential initiatives. More
than 3,200 fugitive felons who were illegally receiving food stamps have been arrested
through Operation Talon, as of September 30, 1998. Operation "Kiddie Care" has resulted in
over 50 Child and Adult Care Food Program sponsors being audited or investigated in nearly
half the States of the Nation. Our joint effort with the Rural Housing Service to identify and
prosecute those who defrauded Rural Rental Housing projects is progressing, and we
anticipate issuing a report by spring.

Once again, I extend my appreciation to you and the Deputy Secretary. I also wish to thank
all the members of the House of Representatives and the Senate who have lent their support.
In addition, I extend my warmest regards to the many State and local officials and law
enforcement personnel who contributed to our successes.

Sincerely,




ROGER C. VIADERO
Inspector General

Enclosure
Contents


Executive Summary ............................................................................................................................................. 1
Summaries of Audit and Investigative Activities ....................................................................................................... 4
Update of Ongoing Initiatives
   Operation Talon ................................................................................................................................................ 5
   Operation “Kiddie Care” .................................................................................................................................... 6
   Rural Rental Housing Projects ............................................................................................................................. 6
Farm and Foreign Agricultural Services
   Farm Service Agency ......................................................................................................................................... 7
   Risk Management Agency .................................................................................................................................. 9
   Foreign Agricultural Service .............................................................................................................................. 10
Food, Nutrition, and Consumer Services
   Food and Nutrition Service ............................................................................................................................... 12
   Food Stamp Program ....................................................................................................................................... 12
   Child Nutrition Programs .................................................................................................................................. 16
   Special Supplemental Nutrition Program for Women, Infants, and Children ................................................................ 19
Marketing and Regulatory Programs
   Agricultural Marketing Service .......................................................................................................................... 20
   Animal and Plant Health Inspection Service ......................................................................................................... 21
Natural Resources and Environment
   Forest Service ................................................................................................................................................ 23
Rural Development
   Rural Housing Service ..................................................................................................................................... 27
Research, Education, and Economics
   Cooperative State Research, Education, and Extension Service ................................................................................. 29
Financial, Administrative, and Information Technology
   Equal Employment Opportunity ......................................................................................................................... 30
   Financial Management ..................................................................................................................................... 32
   Information Technology ................................................................................................................................... 35
   Audits of Contracts ......................................................................................................................................... 35
   Oversight of Non-Federal Auditors ..................................................................................................................... 36
Employee Integrity Investigations ........................................................................................................................ 37
Statistical Data
   Audits Without Management Decision ................................................................................................................ 38
   Indictments and Convictions ............................................................................................................................. 54
   The OIG Hotline ............................................................................................................................................. 55
   Freedom of Information Act Activities ................................................................................................................. 56
Appendix I: Inventory of Audit Reports Issued
   With Questioned Costs and Loans ................................................................................................................... 57
Appendix II: Inventory of Audit Reports Issued
   With Recommendations That Funds Be Put to Better Use ................................................................................... 58
Appendix III: Summary of Audit Reports Released Between
   April 1 and September 30, 1998 ....................................................................................................................... 59
Executive Summary


This is the 40th Semiannual Report issued by the Office      Operation Talon has been expanded to include a total of
of Inspector General (OIG), U.S. Department of               34 metropolitan areas in 23 States, and an additional
Agriculture (USDA), pursuant to the provisions of the        760 fugitives have been arrested, bringing the total to
Inspector General Act of 1978 (Public Law 95-452), as        3,206 arrests as of September 30, 1998. As of
amended. This report covers the period April 1 through       September 11, 1998, 53 sponsors in 23 States were
September 30, 1998.                                          being audited or investigated as a result of Operation
                                                             “Kiddie Care.” One ongoing investigation in Ohio has
In accordance with the requirements of the Inspector         so far identified at least 9 persons who conspired to set
General Act, this report describes matters relating to the   up more than 40 false providers, resulting in the
Department’s programs and operations which occurred          submission of false claims for reimbursements totaling
during the reporting period. These include significant       approximately $1.1 million. We anticipate issuing a
problems, abuses, and deficiencies; significant              report on the joint initiative concerning RRH by the
recommendations for corrective action; prior significant     spring of 1999.
recommendations unimplemented; prosecutorial
referrals; information or assistance refused; a list of      Investigative Efforts
audit reports; summary of significant reports; tables on
questioned costs and funds to be put to better use;          In Idaho, a honey producer is awaiting sentencing after
previous audit reports unresolved; significant revised       he pled guilty to submitting false statements to the Farm
management decisions; any management decision                Service Agency (FSA) in order to obtain over $6 million
disagreements; and a review of legislation and               in loans and subsidy payments as part of a loan-kiting
regulations.                                                 scheme whereby he increased his purported honey
                                                             production each year in order to obtain sufficient funds
Monetary Results                                             from FSA to repay previous debts. By the time his
                                                             scheme was discovered, he owed FSA over $3 million
During this reporting period, we issued 108 audit and        and had no funds or honey with which to repay FSA.
evaluation reports and reached management decisions
on 82. Based on this work, management officials              We cracked multimillion-dollar food stamp trafficking
agreed to recover $12.1 million and to put an additional     cases in several States during this reporting period.
$5.3 billion to better use.                                  Twenty-four individuals have been arrested in the
                                                             southern district of New York on an estimated
We also issued 421 reports of investigation during this      $60 million food stamp fraud and money laundering
period. Our investigative efforts resulted in                conspiracy. During a 2-year investigation in
488 indictments, 333 convictions, and approximately          Philadelphia, Pennsylvania, an elaborate scheme was
$42.8 million in recoveries, fines, restitutions,            uncovered involving $15 million of food stamp trafficking
administrative penalties, claims established, and cost       and money laundering. Also in Philadelphia, the owner
avoidance.                                                   of four retail stores pled guilty to fraudulently purchasing
                                                             approximately $5.4 million in food stamps and
Ongoing Initiatives                                          laundering $4.8 million in funds. In Georgia, a grocer
                                                             was ordered to pay over $3.9 million in restitution after
Operation Talon continues to show success in                 he pled guilty to charges of money laundering and
apprehending fugitives from justice, many of them            redemption of illegally received food stamps. He was
violent offenders; Operation “Kiddie Care” has detected      also sentenced to serve 5 years in prison. As partial
fraud committed by additional Child and Adult Care           payment of his restitution, he agreed to forfeit his
Food Program (CACFP) sponsors around the country;            8,000-square-foot home, five other parcels of real
and a joint effort with the Rural Housing Service (RHS)      estate, and two vehicles.
to identify those who defrauded Rural Rental Housing
(RRH) projects is progressing.




                                                                                                                        1
We previously reported that a San Diego-based food          In January 1997, FSA implemented two programs to
processing company and its president/owner pled guilty      provide assistance to endangered livestock caught in
to charges of submitting false claims to USDA in relation   the blizzards and cold weather in the upper Great
to the substitution of Mexican strawberries for U.S.        Plains. Because the two programs ran concurrently
domestic strawberries in the USDA National School           with different cost-share rates, some producers
Lunch Program. The president/owner has since been           improperly received assistance for supplemental feed
sentenced to 10 months in prison and has been fined         purchases under the wrong program, which allowed the
$13,000. The company has been ordered to pay                producers to receive 100 percent of the feed cost
$200,000 in fines; $150,000 in restitution to USDA; and     compared to the 30-percent cost-share. We also found
$1,300 in court penalties. In addition, the company has     that producers in 23 contiguous counties in four States
agreed to a $1.3 million civil settlement.                  (Iowa, Montana, Nebraska, and Wyoming) adjoining the
                                                            declared disaster areas in North Dakota and South
In Oregon, six individuals are awaiting sentencing after    Dakota received over $2.5 million in unauthorized
they pled guilty to charges of theft for their part in a    program benefits.
conspiracy to fraudulently acquire and sell dogs to
medical research facilities. Our investigation disclosed    We found that reinsurance companies’ quality control
that a USDA-licensed dog dealer and her associates          systems were lacking. We attributed this to inadequate
either stole dogs or obtained them under false              standard reinsurance agreements, in part, because the
pretenses. Over a 15-month period, they illegally           agreements did not contain provisions to ensure that the
obtained over 100 dogs in this manner.                      systems were properly established. As a result,
                                                            program officials cannot rely on reinsured companies’
After we received confidential information from a private   quality control review systems to assure effective
sector contractor, our 18-month investigation developed     implementation and administration of crop insurance
evidence showing that two Natural Resources                 programs.
Conservation Service (NRCS) employees who were
responsible for managing Emergency Watershed                The Agricultural Marketing Service (AMS) and the
Protection Program (EWPP) contracts accepted cash           National Fluid Milk Processor Promotion Board need to
bribes from a contractor in exchange for special            improve their oversight and controls over Fluid Milk
considerations in obtaining EWPP contracts. A third         Promotion Program activities to ensure that
employee arranged for a contractor doing business with      assessments on fluid milk products are used in
NRCS to perform construction work on personally             accordance with the Fluid Milk Promotion Act. Our
owned land, the cost for which was then improperly          review identified problems with the board’s
billed to USDA. The three employees entered guilty          management structure, contracts that were awarded
pleas. One employee was fined and placed on                 without competition to procure services, payments that
probation, and resigned from NRCS. The other two            exceeded contract limits, a lack of enforcement of
employees are currently on indefinite suspension; they      contract terms, and instances where the board had not
stated in their plea bargains that they would resign from   taken title to or possession of assets procured with
their positions and are awaiting sentencing.                program funds. AMS did not agree to suspend the
                                                            board’s activities as we had recommended. However, it
Audit Efforts                                               agreed to institute improvements and is working with the
                                                            Fluid Milk Board to strengthen management controls.
This reporting period we found that, of 80 emergency
loans reviewed in 6 key States, 33 borrowers received
both catastrophic risk protection (CAT) or Noninsured
Crop Disaster Assistance Program (NAP) payments and
emergency loan assistance for the same crop losses
because program personnel were unaware that such
duplicate payments were prohibited. We also found
problems with false certifications, misinformation, and
errors computing loan amounts.




2
Our audit identified a serious breakdown of controls in      We disclaimed an opinion on the FY 1997 financial
all phases of the Humboldt-Toiyabe National Forest land      statements of the Department (consolidated) and FS.
adjustment program in Nevada. Forest Service (FS)            The Food and Nutrition Service (FNS) and the Rural
management allowed private parties to exert undue            Development mission area received qualified opinions,
influence over the direction and outcome of almost all       while the Commodity Credit Corporation (CCC) and the
large-value land exchanges at the forest. We                 Rural Telephone Bank (RTB) received unqualified
questioned accomplished and proposed land exchange           opinions for their FY 1997 financial statements. Our
transactions for 7,029 acres of Federal and non-Federal      disclaimer of opinion on the Department’s financial
lands, valued at $27.9 million. In response to our audit,    statements was due largely to the numerous material
both the FS Chief and the Under Secretary for Natural        internal control weaknesses at the Office of the Chief
Resources and Environment have taken immediate               Financial Officer (OCFO)/National Finance Center
actions to implement needed controls in this area.           (NFC) which we have previously reported. We were
                                                             unable to express an opinion on FS financial statements
Also in Nevada, FS is in jeopardy of losing management       for FY 1997 because of the absence of an integrated
control over lands recently acquired for $38 million. We     general ledger and supporting subsidiary records, along
identified a serious problem relating to the treatment of    with significant financial systems weaknesses.
building improvements in a land exchange transaction
involving a 46-acre parcel on Lake Tahoe known as            We reported that the Department is progressing with the
Zephyr Cove. To preclude further deterioration of FS’        “Year 2000” conversion project. However, the Office of
control of the Zephyr Cove lands, it is imperative that FS   the Chief Information Officer’s (OCIO) reported number
immediately take aggressive action to assert its             of compliant systems overstated the Department’s
ownership of the property.                                   actual progress. OCIO officials agreed with our findings
                                                             and have implemented corrective actions, and our
In another audit, we found that FS did not effectively       review work is continuing.
manage grant agreements totaling about $11.9 million
($7.8 million in Federal grant funds plus about              Reports on the Internet
$4.1 million in required matching funds) to the eight
nonprofit organizations (NPO’s) that we reviewed. The        A number of the entries in this report can be found in
agency agreed with the findings and recommendations          their entirety on our website on the World Wide Web at
and initiated corrective action.                             www.usda.gov/oig. These entries include those
                                                             addressing Operation “Kiddie Care” (Interim Report)
Our current review of the operations of USDA’s Office of     (page 16 in this report), school meal programs in the
Civil Rights (CR) disclosed that the backlog of              District of Columbia (page 19), the Fluid Milk Promotion
complaints of civil rights violations, although reduced,     Program (page 20), the Humboldt-Toiyabe National
still stands at 616 cases as of September 11, 1998. CR       Forest land adjustment (page 23), the Zephyr Cove land
has not attained the efficiency it needs to systematically   exchange transaction (page 24), FS grants to NPO’s
reduce the case load, few of the deficiencies previously     (page 25), the CR report (page 30), and the FY 1997
noted have been corrected, and the office is still in        financial statements for USDA (page 32), FS (page 33),
disarray. We concluded that the Secretary needs to           and FNS (page 33).
transfer resolution of the backlog to a complaints
resolution task force and that the Secretary should
create an Assistant Secretary of Civil Rights with
subcabinet-level status.




                                                                                                                    3
     Summary of Audit Activities

Reports Issued .................................................................................................................................................         108
    Audits Performed by OIG ...............................................................................                    59
    Evaluations Performed by OIG .......................................................................                       18
    Audits Performed Under the Single Audit Act .................................................                             24
    Audits Performed by Others ...........................................................................                      7

Management Decisions Made
  Number of Reports ........................................................................................................................................              82
  Number of Recommendations .......................................................................................................................                      511

Total Dollar Impact (Millions) .......................................................................................................................... $5,392.0
  Questioned/Unsupported Costs .............................................................................................            $48.6ab
     Recommended for Recovery .......................................................................... $12.1
     Not Recommended for Recovery ................................................................... $36.5
  Funds To Be Put to Better Use .............................................................................................. $5,343.4
a
    These were the amounts the auditees agreed to at the time of management decision.
b
    The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.



     Summary of Investigative Activities
Reports Issued ...................................................................................................................................................       421
Cases Opened ...................................................................................................................................................         388
Cases Closed .....................................................................................................................................................       454
Cases Referred for Prosecution .........................................................................................................................                 308

Impact of Investigations
  Indictments ....................................................................................................................................................        488
  Convictions ....................................................................................................................................................        333a
  Searches ........................................................................................................................................................       134
  Arrests ...........................................................................................................................................................   1,012b

Total Dollar Impact (Millions) ..........................................................................................................................               $42.8
  Recoveries/Collections ..........................................................................................................             3.4c
  Restitutions ............................................................................................................................    20.8d
  Fines ...................................................................................................................................... 12.5e
  Claims Established ................................................................................................................           1.1f
  Administrative Penalties ........................................................................................................             0.2g
  Cost Avoidance ......................................................................................................................         4.8h

Administrative Sanctions
 Employees ......................................................................................................................................................          36
 Businesses/Persons ........................................................................................................................................            1,628
a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the
  333 convictions do not necessarily relate to the 488 indictments.
b
  Includes 760 Operation Talon arrests and 252 arrests not related to Operation Talon.
c
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
d
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
e
  Fines are court-ordered penalties.
f
  Claims established are agency demands for repayment of USDA benefits.
g
  This category includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.
h
  This category consists of loans or benefits not granted as the result of an OIG investigation.




4
Update of Ongoing Initiatives


Last reporting period, we began three major operations      We also previously reported on a White House press
that were endorsed as Presidential Initiatives.             conference in which Vice President Gore announced
Operation Talon continues to show success in                the results of Operation Talon to the Nation. Following
apprehending fugitives from justice, many of them           this announcement, we sent a copy of our Operation
violent offenders; Operation “Kiddie Care” has detected     Talon report to the Governors of all 50 States, and
fraud committed by additional Child and Adult Care          U.S. Trust Territories, advising them of the success of
Food Program (CACFP) sponsors around the country;           the operation and urging them to consider similar
and a joint effort with the Rural Housing Service (RHS)     actions in their States. As a result, we have received
to identify those who defrauded Rural Rental Housing        responses from several Governors throughout the
(RRH) projects is progressing.                              country extolling the operation and advising us of their
                                                            interest in similar activities in their States.
Operation Talon Shows Continued Success
Apprehending Fugitives From Justice                         Recent arrest operations in the Commonwealth of
                                                            Virginia, resulting in 140 fugitives being arrested,
In our last Semiannual Report to Congress, we reported      culminated in a press conference in Richmond during
the progress of Operation Talon, a nationwide initiative    which the Superintendent of the State Police
designed to locate and apprehend fugitives who are          complimented this joint operation. Again, Operation
current or former food stamp recipients. At that time,      Talon allowed the sharing of information between State
Operation Talon had resulted in the arrest of               agencies and law enforcement, and the cooperative
2,446 fugitive felons. Since then, Operation Talon          effort between Federal, State, and local law
has been expanded to include a total of 34 metropolitan     enforcement agencies.
areas in 23 States, and an additional 760 fugitives have
been arrested, bringing the total to 3,206 arrests as of    OIG is currently working closely with law enforcement
September 30, 1998.                                         agencies on Operation Talon in several other States.
                                                            Computer matches and arrests are ongoing in select
                                                            locations, while large-scale arrest operations are
                                                            scheduled for other metropolitan areas. Figure 1 shows
                                                            the crimes committed by felons apprehended in
                                                            Operation Talon, as of September 30, 1998.


Figure 1
Crimes Committed by Felons Apprehended in Operation Talon

                      Offense               Total Arrests         Offense           Total Arrests

                       Murder                     13            Kidnapping                8

                  Attempted Murder                9               Assault                147

                  Child Molestation               14              Robbery                103

                        Rape                      9                Drugs                 823

                  Attempted Rape                   2               Other                2,078




                                                                                                                       5
Presidential Initiative in CACFP Continues With            RRH Projects Continue To Be High-Risk Operations
Operation “Kiddie Care”
                                                           OIG audits and investigations performed over the past
In the last Semiannual Report to Congress, we reported     several years have repeatedly identified fraud by
on the status of Operation “Kiddie Care,” our national     program borrowers and management agents. To
Presidential Initiative to identify, audit, investigate,   combat this abuse, OIG and RHS undertook a joint
remove from CACFP if necessary, and prosecute              effort in March 1998 to identify those who defrauded
sponsoring organizations (sponsors) abusing this           projects and, whenever possible, to prosecute them
important USDA feeding program. As of September 11,        criminally. We anticipate issuing a report on this
1998, 53 sponsors in 23 States were being audited or       Presidential Initiative by the spring of 1999.
investigated. See page 16 for a complete summary of
our most recent results.




6
Farm and Foreign Agricultural Services


 FARM SERVICE AGENCY (FSA)                                    (strawberries, cherries, and onions), the actual
                                                              production was based on information reported by the
                                                              producer. However, many fruits and vegetables,
For fiscal year (FY) 1998, FSA estimates expenditures         including strawberries, often involve roadside sales,
of approximately $1 billion in salaries and expenses and      which are not verifiable and, thus, cannot be used to
has budget authority of $102.4 million for the                quantify actual production.
Agricultural Credit Insurance Fund Program Account
and $2 million for State mediation grants. The                We recommended that $411,000 in overpayments be
Commodity Credit Corporation (CCC), a Government              collected in the four States. FSA has taken action to
corporation, funds all other program operations, with         collect the overpayments if relief was not granted under
estimated FY 1998 outlays of $8.6 billion, and CCC            appropriate relief provisions.
made $5.3 billion in commodity loans during FY 1997.
As of September 30, 1997, approximately                       FSA Paid Duplicate Benefits for Crop Losses
112,000 borrowers owed FSA $11.8 billion for farm
program loans, and FSA had guaranteed more than               Of 80 emergency loans reviewed in 6 key States,
$6.5 billion in farm program loans made by private            33 borrowers received both catastrophic risk protection
lenders to more than 40,000 borrowers.                        (CAT) or Noninsured Crop Disaster Assistance Program
                                                              (NAP) payments and emergency loan assistance for the
Family Partnership Violated Payment Limitation and            same crop losses. This occurred because FSA Farm
Eligibility Provisions                                        Loan Program State and county personnel were
                                                              unaware that NAP and CAT laws and regulations
Our review disclosed that a family partnership                prohibited producers who elected to receive NAP or
(consisting of a father, mother, and their two adult sons)    CAT benefits from obtaining other USDA benefits for the
did not carry out its 1991 through 1993 farming               same losses. As a result, the borrowers received CAT
operations as reported to FSA. As a result, the               and NAP payments totaling $803,000 and emergency
members of the partnership would not be considered            loan assistance totaling $3.7 million for the same
separate persons for 1991, 1992, and 1993 and would           losses.
not be considered to be actively engaged in farming for
1992 and 1993. We recommended that FSA determine              FSA’s internal controls did not prevent or detect false
whether, as indicated, the family group adopted a             certifications and/or misinformation provided by
scheme or device to evade wool and mohair payment             emergency loan borrowers and errors made by FSA
limitations and, if so, recover overpayments of               personnel computing maximum emergency loan
$2.4 million.                                                 amounts. As a result, excess loan funds totaling over
                                                              $1 million were disbursed for numerous emergency
Review of Noninsured Crop Disaster Assistance                 loans, and some borrowers may have been eligible to
Program (NAP) Shows Overpayments                              receive additional loan funds totaling over $155,000.
We reviewed 1996 crop-year program payments in                For 38 of the 67 loans fully reviewed (13 had a limited
California, Florida, Georgia, and Oklahoma, where             review), borrowers falsely certified or misreported
$26.9 million (out of $45.9 million nationwide) in benefits   yields, acreages, and/or insurance compensation to
was paid as of July 31, 1997. We found hidden or              FSA or could not document reported data. As a result of
inaccurate reporting of production and the use of             the false or inaccurate information, we identified
incorrect yields to compute payments for 23 of the            overloaned amounts totaling $871,000 and underloaned
98 cases (23 percent, valued at $2.4 million) reviewed.       amounts totaling almost $116,000. We referred loans
We also found that the process for determining the            involving false certifications in Oklahoma to the U.S.
actual amount of loss could allow producers to obtain         attorney, who has initiated civil lawsuits against seven
unwarranted program benefits because reported                 borrowers and the individual who packaged the loans
information (based on estimates and adjustments) used         for five of the borrowers.
to determine the loss could not be verified. This was a
major problem in Oklahoma, particularly for seeded            Also, FSA personnel made errors computing maximum
wheat forage. For other crops included in our review          loan amounts for 32 of the 80 loans reviewed. At least
                                                              14 loans were overstated by $245,000, and at least 8
                                                              were understated by almost $40,000.
                                                                                                                        7
                                                             Emergency Assistance to Producers in the Upper
We recommended that the FSA national office instruct         Great Plains
each State to review all emergency loans made since
the inception of NAP and CAT to determine if                 In January 1997, FSA implemented two programs to
unauthorized multiple benefits were issued and require       provide assistance to endangered livestock caught in
the borrowers to refund the questioned amounts.              the blizzards and cold weather in the upper Great
Further, FSA should amend agency procedures to               Plains. The Emergency Feed Grain Donation Program
clarify that the law prohibits borrowers from receiving      (EFGDP) provided 100-percent cost-share assistance to
duplicate emergency benefits on the same crop losses,        livestock producers for snow removal and/or feed if their
specifically NAP or CAT payments and emergency loan          livestock was in immediate danger of perishing and they
assistance. We also made several recommendations to          did not have access to their normal feed supplies. The
strengthen program controls. In the reports to State         Foundation Livestock Relief Program (FLRP) provided
offices, we recommended that the identified overloaned       30-percent cost-share assistance for producers in these
amounts be recovered and that borrowers be afforded          areas who needed feed to enhance the diet of
the opportunity to apply for the underloaned amounts.        foundation livestock (breeding stock) weakened by the
                                                             severe winter weather.
County Office Operations Mismanaged

FSA identified, and OIG corroborated, widespread
errors and irregularities in virtually every FSA program
administered by Reeves County, Texas. For example,
farm reconstitutions were performed unnecessarily and
improperly; credits and certifications were given
improperly; crop yields were established and increased
improperly; and numerous problems with contracts and
documents were identified.

Also, one county committee member had no farming or
ranching interests in Reeves County, and another
member was part of a partnership that was improperly
paid over $50,000 because the partnership did not meet
cash-rent tenant rules. In addition, a producer who was
delinquent over $400,000 on his FSA farm loans was           Severe weather took its toll on livestock in South Dakota
allowed to transfer his farming interests to his daughter    during the winter of 1996-1997. Photo courtesy of FSA.
and son to avoid administrative offset of program
payments totaling over $350,000.                             Because the two programs ran concurrently with
                                                             different cost-share rates, some producers improperly
We attributed these irregularities to the willingness of     received assistance for supplemental feed purchases
county office staff, including the County Executive          under EFGDP instead of FLRP. This allowed the
Director and county committee, to accommodate                producers to receive 100 percent of the feed cost
producer requests and to disregard FSA rules and             compared to the 30-percent cost-share. In addition, we
procedures in order to maximize Government benefits          found that producers were paid EFGDP benefits for
to county producers. Also, a lack of State office            excessive snow removal costs during the additional
followup on prior county office reviews contributed to the   15-day extension period and for snow removal when
problems in Reeves County since issues identified in         they had access to normal feed supplies.
past reviews were not adequately or timely corrected.
                                                             We also found that producers in contiguous counties in
We recommended that FSA take immediate action to
                                                             four States (Iowa, Montana, Nebraska, and Wyoming)
assure that FSA programs in Reeves County are
                                                             adjoining the declared disaster areas in North Dakota
administered in accordance with regulations and
                                                             and South Dakota were improperly authorized to
operating procedures and complete a corrective action
                                                             receive FLRP payments. FSA provided producers in
plan to remedy the identified errors.

8
23 counties with over $2.5 million in unauthorized         of $300,000 after an OIG investigation. Investigators
program benefits.                                          uncovered a triple-escrow scheme used by the producer
                                                           in 1992 to divert $56,000 of profit from the sale of
We recommended FSA strengthen its oversight role in        property mortgaged to the former Farmers Home
certain areas and require the county offices to act on     Administration (FmHA) to one of his business entities.
the cases where excessive EFGDP and FLRP                   The producer, who was on national committees
payments were issued. In addition, we recommended          pertaining to the General Agreement on Tariffs and
that FSA implement controls to help ensure that disaster   Trade and the North American Free Trade Agreement,
assistance is limited to areas identified in future        defaulted on $7.1 million in FmHA emergency loans
Presidential disaster declarations.                        made to his farming operation in 1978. From 1979
                                                           through 1993, the producer systematically disposed of
FSA believed existing controls have generally proved to    2,865 acres of farm land, deeded to FmHA as collateral
be adequate. However, due to the complexity and            for the emergency loans, through numerous
resulting difficulty of administering emergency and        questionable real estate transactions.
disaster programs, procedures to improve program
oversight—including the performance of application,        Honey Producer Guilty of Loan-Kiting Scheme
approval, and payment reviews—have been
incorporated into other similar programs. FSA agreed to    In Idaho, a honey producer is awaiting sentencing after
issue instructions to initiate recovery of overpayments,   he pled guilty to submitting false statements to FSA in
subject to the finality rule. FSA believes it acted        order to obtain over $6 million in loans and subsidy
properly by suspending further authorizations of           payments. The producer concocted a “kiting” scheme
contiguous counties when it became aware of the            whereby he increased his purported honey production
problem.                                                   each year in order to obtain sufficient funds from FSA to
                                                           repay previous debts. The producer created fictitious
Father, Son, and Nephew Plead Guilty to Converting         checks from a nonexistent honey company in order to
Mortgaged Grain To Develop Truck Stop                      convince FSA that he was actually selling honey each
                                                           year, when, in fact, he produced almost no honey. By
In North Dakota, a father, son, and nephew pled guilty     the time his scheme was discovered, he owed FSA over
to converting $279,800 worth of mortgaged grain. The       $3 million and had no funds or honey with which to
three men used the proceeds to develop an interstate       repay FSA. The producer’s wife entered a pretrial
truck stop which they operated near the Canadian           diversion program as a result of her participation in the
border. Each was sentenced to 5 years’ probation, and      scheme.
they were ordered to pay restitution totaling nearly
$218,400.
                                                            RISK MANAGEMENT AGENCY (RMA)
Farmer Sentenced for Collateral Conversion
                                                           RMA supervises the Federal Crop Insurance
A Texas farmer who failed to pay FSA with proceeds he      Corporation (FCIC) and oversees all programs
received from his crop insurance was sentenced in          authorized under the Federal Crop Insurance Act. FCIC
Federal court to serve 5 months in prison, followed by     is a wholly owned Government corporation that offers
5 months of community confinement, and to pay over         subsidized, multiple-peril crop insurance through a
$80,000 in restitution to FSA. FSA financed his farming    private delivery system by means of reinsured
operation, but the farmer used the insurance proceeds      companies. These are private insurance companies
to pay his losses from speculating in the commodity        that perform the insurance marketing, distribution,
futures market.                                            servicing, training, quality control, and loss adjustment
                                                           functions in return for a percentage reimbursement of
Prominent Farmer Agrees to $300,000 Civil                  the premiums. RMA’s programs are estimated at
Settlement                                                 $1.8 billion in premiums (about $950 million of which
                                                           is in the form of premium subsidy), $2.1 billion in
A prominent California agricultural producer—who was       indemnities, $275 million in delivery expenses, and
also a businessman, community leader, and                  $64 million in administrative and operating expenses
Washington, D.C., “insider”—agreed to a civil settlement   for FY 1999.

                                                                                                                 9
Reinsurance Companies’ Quality Control Systems               The agency concurred with our recommendations to
Lacking                                                      improve the reinsured companies’ quality control
                                                             processes. However, the agency did not agree with our
RMA delivers multiple-peril crop insurance programs          findings and recommendations regarding the adequacy
through standard reinsurance agreements with private         of management controls for preventing and detecting
insurance companies. Under the agreements, the               potential conflicts of interest.
companies are required to develop quality control plans
that are consistent with the agency’s policies and           Nonirrigated Crop Insurance Yields Set Too High
procedures and that help safeguard against waste, loss,      and Practices Not Viable
unauthorized use, and misappropriation.
                                                             This audit was prompted by a hotline complaint alleging
We reviewed the quality control processes at 2 of            that crop-year 1998 extra long staple (ELS) cotton
19 reinsured companies operating with 1995                   transitional-yields (t-yields) for crop insurance purposes
agreements. We found that the companies’ quality             were set unusually high by RMA officials for the Texas
control systems generally complied with the agreements       counties of Glasscock, Midland, Reagan, and Upton.
but did not effectively improve program delivery, ensure     We found that the t-yields (estimated yields based on
program integrity, or measure and report on program          historical averages) for nonirrigated ELS cotton were set
performance. We identified three overall management          exceptionally high for these counties, which could result
control weaknesses: Insufficient data collection,            in a potential excess loss of about $12 million. A similar
maintenance, and reporting requirements; ineffective         situation occurred with nonirrigated popcorn in the Rio
oversight of quality control operations by RMA; and          Grande Valley of Texas where high t-yields resulted in
ineffective controls over potential conflicts of interest.   indemnities totaling about $5.5 million for 1997. Also,
                                                             nonirrigated dent corn t-yields for 1998 were set
We attributed these conditions to inadequate standard        significantly high and could result in losses of between
reinsurance agreements, in part, because the                 $2.2 million and $2.8 million in Tom Green County,
agreements did not contain provisions to ensure that the     Texas.
systems were properly established. As a result,
program officials cannot rely on reinsured companies’        We concluded such nonirrigated practices were not
quality control review systems to assure effective           viable in the cited counties. Officials in the counties
implementation and administration of crop insurance          stated that these were not locally accepted practices,
programs.                                                    because more water is required than the counties
                                                             receive in rainfall. Also, the growing season in the four
We recommended the agency consult with crop                  Texas counties is too short for ELS cotton to properly
insurance organizations and experts and use                  mature.
appropriate professional and ethical standards to
develop a strategy for evaluating the effectiveness of       We recommended that RMA discontinue coverage for
quality control and related reporting functions. We also     nonirrigated practices for ELS cotton in the four counties
recommended the agency require the companies to              named in the original complaint, popcorn in the Rio
calculate annual error rates, retain records necessary to    Grande Valley of Texas, and dent corn in Tom Green
evaluate quality control processes, adopt procedural         County, Texas, effective for crop-year 1999. RMA
requirements without modification, and establish more        agreed to discontinue such coverage effective with
effective controls to prevent and detect potential           crop-year 1999.
conflicts of interest. These controls particularly need to
deal with conflicting sales and claims adjustment
                                                              FOREIGN AGRICULTURAL SERVICE (FAS)
operations and dual supervisory responsibilities over
sales, claims adjustments, and quality control activities.
We believe our findings represent material control           FAS represents the interests of U.S. farmers and the
weaknesses which adversely affect the integrity of crop      food and agricultural sector abroad. It also collects,
insurance programs.                                          analyzes, and disseminates information about global
                                                             supply and demand, trade trends, and emerging market
                                                             opportunities. FAS seeks improved market access for



10
U.S. products and implements programs designed to         • Twenty-six agricultural trade agreements and trade
build new markets and to maintain the competitive           agreements with agricultural provisions concluded
position of U.S. products in the global marketplace.        since 1987 were not reported to the U.S. Department
FAS also carries out food aid and market-related            of State and to Congress as required by law. This
technical assistance programs and helps increase            responsibility rested with the agency entering into the
income and food availability in developing nations by       agreement, generally the Office of the U.S. Trade
mobilizing expertise for agriculturally led economic        Representative. FAS lacked procedures to ensure
growth.                                                     that responsible agencies sent copies of the
                                                            agreements in question to the U.S. Department of
Foreign Agriculture Posts Need To Increase                  State.
Monitoring of Compliance With Trade Agreements
                                                          • FAS lacked a central archive of agricultural trade
Between January 1993 and January 1996, the                  agreements in force between the United States and
U.S. Government concluded more than 180 trade               foreign trading partners. This inhibits FAS’ ability to
agreements with other nations, many with agricultural       provide final copies of trade agreements, side
provisions. In 1996, congressional leaders expressed        agreements, and negotiating histories to
concerns about the monitoring of these accords to           Departmental officials and U.S. companies interested
ensure our trading partners abide by the terms and          in foreign market opportunities.
provisions of the agreements. Our evaluation disclosed
several weaknesses.                                       We made recommendations regarding monitoring
                                                          compliance with trade agreement provisions, reporting
• Greater awareness and monitoring of trade               new agreements to the U.S. Department of State and
  agreements were needed by many FAS foreign              the Congress, and establishing a central archive of
  posts. Nineteen of the forty-eight posts responding     agricultural trade agreements. FAS is seeking an
  to our questionnaire, whose host countries are          advisory opinion from the Office of the General Counsel
  members of the World Trade Organization, reported       concerning its legal obligations under the Case-Zablocki
  they did not monitor their host countries’ compliance   Act to notify the U.S. Department of State concerning
  with trade agreements.                                  the agricultural treaties.




                                                                                                                 11
Food, Nutrition, and Consumer Services


 FOOD AND NUTRITION SERVICE (FNS)                             Alabama

                                                              Due to the rapid deployment of the EBT system in
FNS administers the Department’s food assistance              Alabama, the State was forced to focus its efforts on
programs, which include the Food Stamp Program                implementation problems rather than on the
(FSP); the Child Nutrition Programs (CNP); the Special        development of management controls to oversee long-
Supplemental Nutrition Program for Women, Infants,            term operations of the system. We identified the
and Children (WIC); and the Food Donation Programs.           following areas where additional controls are needed.
These programs are designed to provide people in need
with a more nutritious diet, improve the eating habits of     • The State did not reconcile the $385 million annual
the Nation’s children, and stabilize farm prices through        food stamp benefit authorizations its system
the purchase and distribution of surplus food. FNS’             contractor posted in the central computer files
funding for FY 1998 is approximately $35 billion. Three         against the State’s Master Issuance Authorization
FNS programs receive the bulk of this funding: FSP              File to ensure the propriety of all transactions.
($22 billion), CNP ($9 billion), and WIC ($4 billion).
                                                              • The FNS field office did not timely research and
 FOOD STAMP PROGRAM (FSP)                                       correct weekly exception reports listing $612,000 of
                                                                invalid and unauthorized transactions processed by
                                                                52 retailers between April and December 1997.
Monitoring of the Electronic Benefits Transfer (EBT)
System Continues                                              • The recipient benefit accounts were vulnerable to
                                                                unauthorized transactions at one chain retailer with
Currently, 35 States and the District of Columbia use           124 stores statewide because account numbers were
EBT systems to deliver FSP benefits. Twenty-two of the          included on receipts.
systems have been implemented statewide, and an
additional 10 States, plus the District of Columbia, are in   • The controls over EBT transactions at group homes
the process of expanding statewide. FNS estimates               and treatment centers were inadequate to prevent
that over 50 percent of all FSP benefits will be issued         unauthorized uses of FSP benefits.
via EBT by the end of 1998.
                                                              We made recommendations to improve fiscal and
This period, we began EBT system audits in five States        operational controls over the system and its operations.
and have completed work in two—Alabama and                    FNS generally concurred with our recommendations
Oklahoma. We have also begun work involving the               with the exception of actions pertaining to unauthorized
reconciliation process at one of the large EBT                retailer transactions.
processors and will report on the results of that review
in the next reporting period.                                 Oklahoma

We continue to chair a President’s Council on Integrity       Overall, the Oklahoma EBT system had sufficient
and Efficiency working group composed of Federal,             controls and procedures to ensure timely availability of
State, and public accounting representatives who are          FSP benefits to program participants, but
developing standard procedures for audits of EBT              documentation for the EBT operating procedures
service provider operations. The working group                needed strengthening. Reconciliation procedures and
developed draft audit guidelines that were disseminated       controls over returned EBT cards and dormant accounts
to interested parties in June 1998 for comment. We            needed to be properly documented. In addition, Privacy
envision that public accounting firms will use the guide      Act data was subject to compromise, EBT system
to complete an annual audit of EBT service providers.         access controls needed strengthening, and there was
We anticipate the guide will be available for use in 1999.    no provision for an independent audit of the system.




12
We recommended that FNS direct the Oklahoma State           We recommended that FNS recover the questioned
agency to prepare written operating procedures in           costs from the State and require the State agency to
regard to the reconciliation process, accounting for        discontinue the pass-through system unless it can
returned EBT cards, and the handling of dormant             ensure proper oversight, issue a State directive
accounts. We also recommended that Oklahoma                 requiring that costs claimed for reimbursement be
require the EBT contractor to implement procedures to       based on actual costs incurred in operating the E&T
brief/debrief employees on their responsibility to          program, and implement additional State-level
maintain the privacy and confidentiality of sensitive       accounting procedures to ensure that all claims for
USDA data. In addition, we recommended that                 reimbursement are accurate and adequately supported.
Oklahoma institute further system security measures         FNS has agreed to implement all the recommendations
and ensure that an independent review of the EBT            and to bill the State for the overpayments. In January
system is conducted.                                        1998, FNS instructed Ohio to terminate the pass-
                                                            through system that had allowed it to obtain $2.5 million
FNS agreed with the audit recommendations and               in unmatched Federal funds.
initiated corrective action.
                                                            Multimillion-Dollar Food Stamp Trafficking Cases
Over $2.7 Million Questioned in Ohio Food Stamp             Cracked in Several States
Employment and Training (E&T) Program
                                                            • Twenty-four individuals have been arrested in the
The E&T program provides funds to train food stamp            southern district of New York on an estimated
recipients to find work. FNS approves each State’s            $60 million food stamp fraud and money laundering
E&T plan and reimburses the State for the costs of            conspiracy. This investigation was conducted by OIG
administering the program. FNS provides a                     in cooperation with the Federal Bureau of
100-percent grant for the program and a 50-percent            Investigation (FBI) over the past 2 years. Information
copayment for any program-related costs in excess             obtained from undercover operations, physical
of the grant amount.                                          surveillance, and extensive documentary evidence
                                                              revealed that tens of millions of dollars worth of food
Our review at the Ohio Department of Human Services           stamps were fraudulently redeemed by those
found that county-level officials did not obtain local        involved in the conspiracy who owned or operated
matching funds, bringing into question $2.5 million paid      numerous grocery stores in Manhattan, Brooklyn,
to Ohio in FY’s 1995 and 1996. Lack of controls               and the Bronx. This investigation is continuing with
allowed the State’s computer system to count food             additional arrests and indictments anticipated in both
stamp work registrants each time they enrolled, thereby       the southern and eastern districts of New York.
increasing the State’s work registrant count and calling
into question over $400,000 paid to Ohio for the 1997       • During a 2-year investigation in Philadelphia,
grant year. In addition, the State agency lacked controls     Pennsylvania, an elaborate scheme was uncovered
over the reporting of its E&T pass-through and                involving $15 million of food stamp trafficking and
administrative costs, and it was unable to support over       money laundering. Our investigation determined that
$750,000 in county administrative costs for FY’s 1995         two owners of a wholesale warehouse hired
and 1996. However, due to accounting errors and lack          individuals to open grocery stores which were
of coordination between State fiscal officials, we found      authorized to participate in FSP. The bogus grocery
the State agency submitted inaccurate and unsupported         stores carried very little inventory, and some did not
claims that resulted in a net underclaim of $188,000.         even have cash registers. The stores remained in
                                                              business for approximately 11 months, and then
This audit has led to an ongoing OIG investigation            closed to avoid detection. Over the past 5 years, six
regarding suspicious behavior by county officials and         bogus grocery stores were opened for the purpose of
subcontractors in Akron, Ohio. Investigations by other        illegally redeeming trafficked food stamps. Our
Federal agencies have uncovered illegal activities in         investigation also focused on 14 takeout restaurants
similar cases.                                                in Philadelphia which sold their food stamps to the
                                                              bogus grocery stores.




                                                                                                                   13
     As a result of the investigation, the two owners of the      immediately withdrew a corresponding amount of
     wholesale warehouse and three of the bogus grocery           cash each time. Although his food stores were small
     store owners were indicted on Federal charges. An            and poorly stocked, he redeemed as many food
     arrest warrant was issued for another owner of a             stamps as a chain grocery, approximately
     bogus grocery store, and an additional owner, who            $4.5 million over a 4-year period.
     was a fugitive, turned himself in to Federal authorities
     and was indicted. Assets of approximately $183,900           The investigation was conducted jointly with the
     were seized through asset forfeiture. In addition, five      Internal Revenue Service (IRS), the local sheriff’s
     of the six owners/employees of six takeout                   office, and the FBI.
     restaurants either pled guilty or were found guilty of
     food stamp trafficking. The owners/employees of            Convictions Obtained for EBT Fraud
     seven other takeout restaurants were arrested after
     being indicted by the Philadelphia district attorney’s     • After a jury trial, two employees of a retail grocery
     office. The investigation is continuing with additional      store in Baltimore, Maryland, were found guilty of
     charges expected. This investigation was conducted           trafficking approximately $400,000 in EBT benefits.
     jointly with the U.S. Secret Service.                        One employee was sentenced to 10 months in
                                                                  prison, and the other received 1 year. During plea
• Also in Philadelphia, the owner of four retail stores           negotiations, the owner of the store sent the assistant
  pled guilty to fraudulently purchasing approximately            U.S. attorney a letter which appeared suicidal in
  $5.4 million in food stamps and laundering                      nature. While attempting to locate the owner, we
  $4.8 million in funds. Sentencing is pending. The               found that he had fled the United States to avoid
  investigation revealed that, during the first 10 days of        prosecution. He is currently a fugitive in Nigeria, and
  each month from 1992 through 1997, the subject                  efforts are being made through Interpol (International
  illegally acquired food stamps from street traffickers          Criminal Police Organization) to have the owner
  (known as “runners”), who purchased the food                    returned to the United States for prosecution. The
  stamps from recipients as they left the food stamp              U.S. Customs Service assisted in the fugitive
  distribution centers. The investigation was                     investigation of the owner.
  conducted jointly with the FBI.
                                                                • The owners of two retail grocery stores in Baltimore,
• In Georgia, a grocer was ordered to pay over                    Maryland, received prison sentences of 2 years and
  $3.9 million in restitution after he pled guilty to             18 months, respectively; were fined a total of
  charges of money laundering and redemption of                   $10,000; and were ordered to pay restitution of
  illegally received food stamps. He was also                     $400,000 to USDA. The two stores are estimated to
  sentenced to serve 5 years in prison, followed by               have trafficked between $700,000 and $1 million in
  3 years of supervised release, and 200 hours of                 food stamps from 1993 through 1997. As part of his
  community service. As partial payment of his                    plea agreement, one store owner, who had filed false
  restitution, he agreed to forfeit his 8,000-square-foot         tax returns, conveyed to the Government all interest
  home, five other parcels of real estate, and two                in his business and business property. One of the
  vehicles.                                                       cases was conducted jointly with the Criminal
                                                                  Investigations Division, IRS. Both stores have been
     The grocer, who had previously been disqualified             permanently disqualified from FSP.
     from FSP, notified FNS that he was selling his store
     to a second individual, later identified as his sister.    Prominent Physician and His Wife Plead Guilty to
     FNS authorized the sister to accept food stamps at         Welfare Fraud
     two locations. The grocer actually continued to
     operate both stores and, during the investigation,         In Beltsville, Maryland, a prominent physician and his
     purchased $6,050 in food stamps from undercover            wife pled guilty to fraud charges for having collected
     operatives for $3,450 in cash. Subsequent                  approximately $120,000 in fraudulent welfare benefits
     investigation established that the grocer frequently       from State and Federal agencies from 1993 through
     made three or four deposits of food stamps each day,       1997. These benefits included food stamps, Aid for
     averaging approximately $3,000 per deposit, and            Dependent Children, general welfare, and educational



14
grants. The wife used two different Social Security           redeemed approximately $1.35 million in food stamps,
numbers to perpetrate the fraud: one to collect monthly       while his reported food sales for the same period were
benefits from welfare agencies and the other for tax          less than $400,000. The owner admitted he had been
purposes to report substantial family income. The             illegally purchasing food stamps for cash since his
husband, a noted neonatal physician making $300,000           release from prison on an unrelated charge in October
per year, and three of their children assisted by applying    1991.
for and obtaining portions of the illegal benefits. This
case was worked together with OIG’s for the U.S.              Store Owner Flees Country, Manager Arrested After
Department of Education and the Social Security               Indictment
Administration. Sentencing is pending.
                                                              The owner of a downtown Minneapolis, Minnesota,
Criminal Defense Lawyer and Community Relations               convenience store fled the United States to Egypt after
Board Member Plead Guilty, Await Sentencing                   being indicted on food stamp trafficking, money
                                                              laundering, and conspiracy charges. The investigation
A well-known Cleveland, Ohio, criminal defense                determined that food stamps benefits totaling nearly
attorney (who was also a former county prosecutor)            $400,000 were bought for cash by the owner and his
pled guilty in Federal court to aiding and abetting a         employees while in operation for less than 2 years. In
former member of the Cleveland Mayor’s Community              addition, evidence obtained from several search
Relations Board in illegal food stamp trafficking. The        warrants showed the illegal proceeds were wire-
board member, who pled guilty to trafficking, had             transferred to the owner’s bank account in Egypt.
previously been authorized as an FSP retailer but was
not authorized at the time. The attorney had previously       The store itself, acting through an unindicted co-owner,
represented criminal defendants and civil plaintiffs in       pled guilty to related charges. The former manager had
FSP-related Federal and State court cases.                    fled Minnesota prior to trial but was located and arrested
                                                              in New York City and returned to Minnesota where he
A former Cleveland grocer, who had pled guilty in 1987        pled guilty. He was sentenced to prison prior to
and in 1995 for $2.5 million in illegal redemptions under     deportation. Efforts are being made through the U.S.
a false store ownership, cooperated in an undercover          Department of Justice to have the owner returned to the
capacity. He attempted to purchase a restaurant from          United States for prosecution.
the attorney which the board member was to manage
and eventually co-own. A portion of the purchase price        Grocers Use Trafficked Food Stamps To Repay
was to be paid legally and be reportable to regulatory        Personal Debt
agencies, while another part was to be paid “under the
table” using food stamps. The board member unlawfully         Two Nevada grocery store owners were sentenced to
acquired and transferred $12,000 in food stamps from          serve 15 to 27 months in prison and were ordered to
the informant for an unrecorded “credit” by the attorney      pay a total of $210,000 in fines and restitution after they
against the restaurant’s purchase price.                      pled guilty to conspiracy related to the illegal purchase
                                                              of food stamps. Our investigation disclosed that the
Both defendants are awaiting sentencing. This case            grocers purchased food stamps in Nevada and then
was worked jointly with the FBI.                              sold the food stamps to an owner of a produce business
                                                              in southern California for 90 to 95 cents on the dollar.
Former Congressional Aide Sentenced                           During a 5-month period, the produce business owner
                                                              wrote a total of 16 checks to the 2 grocers for more than
A South Bend, Indiana, grocer, who was formerly a             $107,000. Witness statements disclosed that the
congressional aide, was sentenced to a prison term of         primary motive of the food stamp trafficking was to
11 years 3 months and ordered to make more than               repay a 10-year-old debt incurred by the two grocers to
$26,000 in restitution after his guilty pleas to redemption   the produce business owner. Following an earlier OIG
of illegally received food stamps and money laundering.       investigation, the owner of the produce business was
As reported previously, our investigation disclosed that,     convicted and sentenced to Federal prison, where he is
from January 1988 through July 1993, the owner                currently serving time.




                                                                                                                      15
Armed Career Criminal Convicted, Associate                    redeemed over $1 million in food stamps for others
Indicted                                                      who had illegally purchased the food stamps from
                                                              recipients. He was sentenced in Federal court to
In St. Louis, Missouri, a man who once bragged that he        18 months’ imprisonment and fined $10,000.
had received food stamp benefits in 37 different false
names was convicted by a Federal jury of being an           • In Georgia, an individual who had claimed to operate
armed career criminal and illegally possessing a              a “rolling store” but who actually used his food stamp
handgun. Sentencing is pending. When arrested with            authorization solely to redeem over $200,000 in
the handgun, the man used one of the false names as           illegally purchased food stamps, pled guilty to
identification to law enforcement authorities. The man        charges of food stamp trafficking and submitting false
and at least five associates obtained at least $27,000 in     statements to the Government. The investigation
illegal food stamp benefits and thousands of dollars          began after an OIG audit of rolling store operations
worth of other items through related credit card fraud.       found that the individual lacked business records and
                                                              that he had made bank deposits of food stamps
The man’s former associate has also been indicted for         obtained from a second individual, who has since
making false statements to obtain food stamp benefits.        been convicted of illegally purchasing food stamps.
The associate used a fake Missouri Department of              When asked to show his produce truck to FNS, the
Corrections inmate identification card when she applied       individual borrowed a truck and represented it as his
for food stamps using a false name. The ruse was that         own. He was sentenced to serve 5 months in prison,
she had just been released from prison, was homeless,         5 months in home detention, 300 hours of community
and needed food stamps.                                       service, and 3 years of supervised release and to pay
                                                              $217,300 in restitution to FNS.
This was a joint investigation with the Division of Legal
Services, Missouri Department of Social Services; the
                                                             CHILD NUTRITION PROGRAMS (CNP)
U.S. Postal Inspection Service; the Bureau of Alcohol,
Tobacco, and Firearms; the Social Security
Administration OIG; the St. Louis, Missouri, Police         Presidential Initiative in the Child and Adult Care
Department; and the Jennings, Missouri, Police              Food Program (CACFP) Continues With Operation
Department. The investigation continues.                    “Kiddie Care”

Postal Employee Pleads Guilty to Theft of Food              In the last Semiannual Report to Congress, we reported
Stamps                                                      on the status of our national Presidential Initiative to
                                                            identify, audit, investigate, remove from CACFP if
In Des Moines, Iowa, a U.S. Postal Service employee         necessary, and prosecute sponsoring organizations
pled guilty to two felony counts of theft from the mail     (sponsors) abusing this important USDA feeding
following a 1-year investigation conducted in concert       program. This initiative, named Operation “Kiddie
with the U.S. Postal Inspection Service. Sentencing is      Care,” has focused on the work of sponsors who
pending. Extensive surveillance conducted from              administer the program in day care homes and centers
February 1997 through February 1998 disclosed that          and disburse Government payments to those child care
the employee, while working at the general mail facility,   facilities.
absconded with $27,160 worth of food stamps from
monthly issuance mailings and $80,000 in cash from a        “Sweeps” by OIG auditors and investigators with the
registered mail bag.                                        assistance of FNS and State agency personnel since
                                                            the fall of 1997 have been well targeted. Of the original
Owners of “Rolling Stores” Sentenced to Prison              12 sponsors we reviewed, 11 were found to be seriously
                                                            deficient in their administration of the program; of these
• A Dallas, Texas, man who operated a “rolling store”       11, 5 were terminated initially from the program. In one
  (a vehicle used to sell merchandise to customers)         of the five cases, the termination was overturned on
  pled guilty to a scheme whereby he personally             appeal, but the sponsor did not continue participation.
  purchased about $10,000 in food stamps at a               Four of the terminated sponsors were investigated for
  discount from recipients and, for a percentage,           fraud, and four employees of one sponsor were
                                                            sentenced to prison.

16
As of September 11, 1998, 53 sponsors in 23 States             paid the day care homes the correct amount, and
were being audited or investigated.                            then issued a second check in the sponsor’s name
                                                               for the inflated amount. Our investigation, conducted
• In Ohio, nine persons, including the director of the         jointly with the IRS and FBI, disclosed false claims
  sponsoring organization operating a local child and          totaling approximately $127,000 for meals and
  adult care food program, entered guilty pleas to             snacks over a 3-year period, including payments
  conspiracy to submit false claims for issuing and/or         issued in the names of 15 individuals who did not
  receiving reimbursement payments for in-home day             actually participate in the program.
  care providers who did not exist or did not have
  children in the home. This ongoing investigation has       • In Pennsylvania, a former sponsor official pled guilty
  so far identified at least 9 persons who conspired to        to embezzlement, misapplication of funds, and theft
  set up more than 40 false providers, resulting in the        totaling $92,000 from CACFP. She failed to
  submission of false claims for reimbursements                reimburse 200 day care homes and misused funds to
  totaling approximately $1.1 million. The scheme had          cover administrative expenses. The official used the
  been going on since about 1988. This investigation           embezzled money to cover personal expenses such
  continues, and additional prosecutions are                   as her mortgage and to buy equipment for a
  anticipated. The investigation was worked jointly with       restaurant she owned. Sentencing is pending.
  the U.S. Postal Inspection Service.
                                                             • The former manager of an Arizona CACFP
• Three former employees of a California CACFP                 sponsoring agency was placed on probation for
  nonprofit child care sponsor are awaiting sentencing         5 years and was ordered to pay restitution of $31,900
  after pleading guilty to mail fraud in connection with a     to FNS after she pled guilty to theft of Government
  scheme to defraud CACFP of over $110,000. Our                money. Our investigation disclosed that the manager
  investigation disclosed that the employees devised a         diverted money by writing 61 checks on the
  scheme whereby they submitted false claims,                  sponsoring agency’s account, made payable to
  through the sponsor, for day care home providers             individuals whom she had falsely represented as day
  who were no longer participating in CACFP.                   care providers. She then deposited these checks
                                                               into her personal account.
  As part of their plea agreements, the employees
  have agreed to testify against the two owners of the       • In California, an executive director of a sponsor
  sponsoring organization, who were also charged with          retained food reimbursements to cover the salary he
  defrauding CACFP of approximately $142,000 and               claimed to earn in California while he was actually
  the California State Preschool Program of                    working for another enterprise and living in
  approximately $200,000. The owners’ scheme                   Wisconsin. He also had a vehicle in Wisconsin for
  involved the submission of false claims for expenses         his personal use which was being paid for by the
  associated with CACFP. The owners were also                  California sponsor. We questioned about $231,000
  charged with committing perjury to the grand jury and        paid to this individual.
  obstruction of justice for threatening Government
  witnesses.                                                 • In Louisiana, a sponsor is being investigated for
                                                               allegedly embezzling the food payments claimed for
  As a result of the investigation, the sponsoring             providers who were no longer participating in CACFP.
  organization was terminated from participation in            Our audit disclosed suspected forged checks that
  CACFP and the State Preschool Program.                       total about $35,000, and administrative costs of
                                                               about $18,000 were also questioned. The
• In Tennessee, the former sponsor official of 69 day          106 homes we visited that were administered by this
  care homes was sentenced to serve 9 years                    sponsor showed very poor oversight; we issued a
  2 months in prison and ordered to pay restitution of         Management Alert recommending immediate
  $127,400 after being convicted at trial on 59 counts         termination. The sponsor was unable to meet
  for mail fraud, making false statements, and money           corrective action demands by the State’s deadline,
  laundering. The official inflated the number of              and the sponsor’s executive director turned in a letter
  children enrolled and the number of meals claimed,           of self-termination.



                                                                                                                   17
• In Florida, a sponsor is being investigated for                   As part of Operation “Kiddie Care,” 13 sponsors have
  apparently using food funds to pay for over $147,000              been terminated from the program. These 13 had been
  in questionable expenses uncovered during our                     receiving $24.2 million in program funds annually to
  audit. Large sums were paid to another enterprise                 administer the program and to reimburse the food costs
  with which the director of the sponsor was affiliated.            of the homes and centers under their sponsorship.
  In addition, our visits to 167 homes showed that the              These funds may now go to legitimate sponsors to feed
  sponsor’s oversight of the providers was very poor.               needy children.
  We estimate that about 20 percent of the providers’
  claims will be questionable due to incomplete meals               Although Operation “Kiddie Care” requires a
  provided to children, meals claimed for children not              disproportionate amount of resources for a relatively
  present, and meals claimed for children with no                   small feeding program, the operation will continue as
  enrollment forms on file at the day care homes.                   long as we find evidence that abuses are continuing.
                                                                    Returning integrity to this very important feeding
• In California, two individuals, one of whom was a                 program and protecting the resources of the American
  former manager for a child care provider, are                     taxpayer are high priorities for OIG and FNS. Figure 2
  awaiting sentencing after they pled guilty to a charge            shows the status of our investigations of sponsors and
  of making a false statement in connection with                    providers, as of September 11, 1998.
  CACFP provider claims. Our investigation disclosed
  that the former manager conspired with her friend to
  create a fictitious child care provider case. From May
  1995 through August 1997, they illegally obtained
  over $23,000 in Federal and State funds.

Figure 2
Status of Investigations of Sponsors and Providers
                                                                    Individuals            Individuals
                                                 Entities            Indicted or            Who Pled
                                               Terminated             Named in              Guilty or
                         Investigations           From                Criminal                Were         Individuals
     State                in Progress            CACFP              Information             Convicted      Sentenced
     Arizona                    1                                          1                     1               1
     California                 6                     4                  11                      9              41
     Colorado                   1
     Florida                    2
     Idaho                      1                     1                    1                      1              1
     Louisiana                  2                     1
     Michigan                   1                     1                    2
     New Mexico                 2                                          1                      1              1
     New York                   2                                          1                      1              1
     Ohio                       2                     1                    9
     Pennsylvania               3                     1                    1
     Tennessee                  3                     2                    1                       1             1
     Utah                       1                     1                    1                       1
     Washington                 2                                                                  1            13
     TOTALS                    29                   122                  29                       16           10
1
 The sentence handed down on these four individuals included $2.2 million in restitution.
2
 A thirteenth sponsor in Oregon was terminated from the program but not investigated for fraud.
3
 An administrative action, not a criminal action, was handed down to this provider.


18
Arkansas County Pays $900,000 Settlement                     SPECIAL SUPPLEMENTAL FOOD PROGRAM
                                                             FOR WOMEN, INFANTS, AND CHILDREN
The sponsor for the 1992-1995 summer feeding                 (WIC)
program in Pulaski County, Arkansas, agreed to pay a
$900,000 civil settlement after our investigation
disclosed approximately $880,000 in overclaims              Puerto Rico Did Not Comply With Funding
submitted for those years. We found the private             Requirements for Nutrition Education and
organization operating the feeding sites on behalf of the   Breastfeeding Promotion
county inflated the attendance records, and the county
submitted those claims. The settlement was for full         The State agency in Puerto Rico did not comply with the
restitution and the equivalent of two $10,000 civil         regulatory requirement that at least one-sixth of total
penalties. Criminal action is still pending against the     nutrition services and administrative costs be spent on
private organization actually operating the feeding sites   nutrition education, for which we calculated a funding
for the county.                                             deficit of over $4.1 million for FY’s 1993 through 1996.
                                                            Overstated costs also affected the required allocation
Improvements Needed in Administration of Meals              for breastfeeding promotion (by over $94,000 in
Programs in the District of Columbia (District)             FY 1996).

The National School Lunch Act authorizes payments to        We recommended that FNS, as required, establish a
States based on the number and category of meals            claim against the State agency for the more than
served—whether free, reduced price, or paid—for the         $4.1 million funding deficit. We also recommended that
National School Lunch Program (NSLP) and the School         FNS closely monitor and assess the accuracy and
Breakfast Program (SBP). Our review of costs charged        applicability of the calendar year 1997 time study to be
to the school food service account for school years         used in calculating spending requirements. In addition,
1995/1996 and 1996/1997 in the District disclosed that      we recommended that FNS assess the State agency’s
financial controls over program funds and reimburse-        FY 1997 cost allocation operations to ensure that the
ment claims were inadequate, procurement policies           methodologies implemented by the State agency are
were not always followed, and monitoring activities did     accurately applied. FNS generally agreed to implement
not always disclose deficiencies or ensure that             our recommendations.
previously disclosed deficiencies were corrected.

We recommended that $4.2 million be refunded to the
program for unallowable expenses (utility bills and
special education) and $250,000 be refunded to FNS for
contract overpayments, reimbursement of ineligible
meals, and nonprogram employee salaries. In addition,
the District needs to support $2.4 million in contract
payments and obtain approval of $325,000 in salaries
and $160,000 in bonuses or refund the amounts to
FNS. We also recommended that procedures be
developed to improve future operations.

FNS agreed with the findings and recommendations
reported and will work with the District to obtain
corrective action.




                                                                                                                 19
Marketing and Regulatory Programs


 AGRICULTURAL MARKETING SERVICE                            The Administrator, through his public accounting firm,
 (AMS)                                                     had contracts to provide financial, accounting, and
                                                           compliance review services to the board. Altogether,
                                                           the board’s Administrator, either as an individual or
AMS enhances the marketing and distribution of             through his firm, had three sole-source contracts with
agricultural products by collecting and disseminating      the board.
information about commodity markets, administering
marketing orders, establishing grading standards, and      Although AMS was responsible for reviewing and
providing inspection and grading services. AMS’            approving all contracts, the board paid over $127 million
funding level for FY 1998 was approximately                for contracts, representing 75 percent of the funds
$243 million.                                              collected through the program, without AMS’ approval.
                                                           The board entered into these sole-source contracts
Inadequate Oversight Provided Over the Fluid Milk          without any competition to ensure the most cost-
Promotion Program                                          effective procurement of services.

AMS and the National Fluid Milk Processor Promotion        The act requires that the board obtain title to all assets
Board need to improve their oversight and controls over    developed using program funds. In one case, the
Fluid Milk Promotion Program activities to ensure that     contract to procure photographs, taken as part of a
assessments on fluid milk products are used in             major milk marketing campaign, did not include
accordance with the Fluid Milk Promotion Act. Those        language to secure title to the assets. Consequently,
assessments, from approximately 370 processors,            the program expended almost $130,000 in royalties for
totaled almost $169 million from December 1993             the continued use of the photographs. The
through June 1997.                                         photographer still has control and possession of the
                                                           photographs, which were developed using over
Our review identified (1) problems with the board’s        $2.7 million in program funds.
management structure, (2) contracts that were awarded
without competition to procure services, (3) payments      Our review disclosed that the board, the contractor, and
that exceeded contract limits, (4) a lack of enforcement   some subcontractors were not in compliance with the
of contract terms, and (5) instances where the board       terms of certain contracts. For instance, the contractor
had not taken title to or possession of assets procured    included provisions in a subcontract with an advertising
with program funds.                                        agency to establish and pay an incentive commission of
                                                           $350,000 if milk sales increased as a result of an
Neither AMS nor the board provided adequate                advertising campaign. Although this arrangement is
management or oversight of program activities. AMS         appropriate, neither the contractor nor the board ever
left most oversight efforts to the board. The board        established a contingency account for such potential
delegated most administrative functions to two             liability.
contractors and was not actively involved in the day-to-
day operations of the program. One contractor, the Milk    The board also presented financial statements that did
Industry Foundation, was responsible for performing        not accurately reflect its financial condition. The
various management and administrative services. The        financial statements as of March 31, 1995; April 30,
other contractor, the board’s Administrator, was           1996; and June 30, 1997, contained material omissions
responsible for collecting assessments, accounting for     and questionable statements that, in the aggregate,
funds, and performing compliance reviews.                  were significant enough to potentially affect the
                                                           decisions of its users. These audits did not include
This alignment of the program’s critical duties and        adequate tests of compliance with laws and regulations.
responsibilities, combined with AMS’ and the board’s
arm’s-length approach in providing oversight, in effect,   Overall, neither AMS nor the board has determined, as
contributed to the compromise of the program’s internal    required, whether the program has resulted in increased
control structure.                                         milk consumption. The program’s most recognized
                                                           promotion has been the milk-mustache advertising
                                                           campaign. While this marketing campaign has been



20
highly visible in the marketplace, no independent          AMS agreed with our findings and recommendations
studies have been performed to determine this              and is working with Puerto Rico to ensure corrective
campaign’s impact on fluid milk consumption.               action is implemented.

We recommended that AMS (1) suspend board program          Owners of Home Delivery Food Service Plead Guilty
activities until a plan is developed whereby the board     to Charges of Theft and Conspiracy
will take full control of its activities and ensure
compliance with the act (to include establishing           The owners of a Delaware-based home delivery food
guidelines for awarding contracts to ensure that           service pled guilty in Delaware State Superior Court to
contracted goods and services are obtained in the most     44 counts of theft and conspiracy to misrepresent
cost-effective manner), (2) require the board to           grades of meats sold to customers. Sentencing is
determine the effectiveness of its research and            pending. The investigation, conducted jointly by OIG
promotion activities to increase fluid milk consumption,   and the Delaware State attorney general’s office,
(3) require the board to obtain AMS approval on all        disclosed that, from June 1993 through November
contracts before any funds are obligated or expended       1996, the company sold USDA Choice-graded beef
and that the board obtain title and possession of all      products—while representing the beef product as being
assets acquired with program funds, and (4) require the    USDA Prime grade—to approximately 800 customers,
board to assure that audits of its books and records are   for quantities ranging in price from $500 to $3,000.
conducted using generally accepted Government
auditing standards.                                        Sentencing in Strawberry Substitution Case

AMS did not agree to suspend the board’s activities.       We previously reported that a San Diego-based food
However, it agreed to institute improvements and is        processing company and its president/owner pled guilty
working with the Fluid Milk Board to strengthen            to charges of submitting false claims to USDA in relation
management controls.                                       to the substitution of Mexican strawberries for U.S.
                                                           domestic strawberries in the USDA National School
Controls Over Federal-State Inspection Funds Need          Lunch Program. The president/owner has since been
Strengthening                                              sentenced to 10 months in prison and has been fined
                                                           $13,000. The company has been ordered to pay
We found that the Puerto Rico Department of                $200,000 in fines; $150,000 in restitution to USDA; and
Agriculture (PRDA) used Federal-State Inspection (FSI)     $1,300 in court penalties. In addition, the company has
Program funds to pay for expenses unrelated to the         agreed to a $1.3 million civil settlement. The former
inspection program. Also, costs associated with the        sales manager of the company was placed on probation
inspection of a specific product were not always           for 5 years after he pled guilty to conspiracy.
properly charged to the correct inspection program;
program revenues for the inspection of fresh fruits and
                                                            ANIMAL AND PLANT HEALTH INSPECTION
vegetables were incorrectly credited to other programs;
                                                            SERVICE (APHIS)
and PRDA reimbursed AMS more than allowed in their
cooperative agreement.
                                                           Through inspections, APHIS protects the Nation’s
We recommended that AMS require PRDA to                    livestock and crops against diseases and pests and
(1) reimburse approximately $69,000 for expenditures       preserves the marketability of U.S. agricultural products
improperly claimed (PRDA has already reimbursed AMS        at home and abroad. APHIS’ obligations for FY 1998
over $103,000), (2) reallocate over $450,000 to specific   are estimated to total over $516 million.
inspection programs, and (3) develop and implement
controls to ensure that FSI funds are used only for        APHIS’ Inspection Process for Registered Airline
expenditures directly related to the FSI process.          Carriers Needs Improvement
Furthermore, AMS will need to coordinate with PRDA to
develop and implement a strategic plan to streamline       Inspection operations over airline carriers could be
operations and clearly define the organization’s           improved. APHIS did not always obtain comprehensive
structure and responsibilities.                            listings of airports from which inspected carriers



                                                                                                                  21
operated and, thus, could not determine whether all         difficulty in getting animal care inspectors to airports at
sites were inspected on a periodic basis. We found in       appropriate times, i.e., when animals are being shipped,
1 APHIS region that of 221 sites used by 3 airlines, only   we recommended that APHIS continue its earlier pilot
32 percent had been inspected since January 1995. In        program of cross-utilizing veterinary care personnel to
addition, because of the way the agency files inspection    perform this function. APHIS agreed with our
reports, APHIS officials could not readily determine        recommendations and plans to implement corrective
whether any particular airport had been inspected within    action to improve the inspection function.
a given time period.
                                                            Dogs Stolen for Medical Research
Since APHIS inspectors cannot determine at what times
a registered carrier is actually transporting animals,      In Oregon, six individuals are awaiting sentencing after
most attempts at performing inspections at airports are     they pled guilty to charges of theft for their part in a
unsuccessful because no animals are present. Of             conspiracy to fraudulently acquire and sell dogs to
297 inspections performed of 5 airlines between             medical research facilities. The six defendants have
January 1995 and April 1997, only 43 (14.5 percent)         also agreed to testify against a former USDA-licensed
were completed with animals present. However,               dog dealer, her husband, and their son, who have all
violations were found on over 37 percent of these           been indicted for conspiracy and mail fraud related to
inspections, indicating that many violations may not be     the scheme. Our investigation disclosed that the dealer
identified because no inspectors are present when           and her associates either stole dogs or obtained them
animals are shipped.                                        under false pretenses. Over a 15-month period, they
                                                            illegally obtained over 100 dogs in this manner. The
We recommended that APHIS require airlines to submit        dealer then falsified APHIS forms in order to conceal
comprehensive and up-to-date listings of airports           their activities. She also forwarded false documents to
through which they transport animals and develop a          the Oregon Department of Agriculture. Because of her
system to identify which airports have been inspected       activities, APHIS refused to renew her dealer license.
during any given time period. Also, because of the




22
Natural Resources and Environment


 FOREST SERVICE (FS)                                       FS also allowed the private parties to control the
                                                           selection of lands that the forest would acquire through
                                                           land exchanges. Our audit questioned three proposed
FS manages natural resources on over 191 million           exchanges that were initiated by private parties and
acres of National Forest System lands. It provides         were taken under consideration by FS, even though the
cooperative forestry assistance to States, communities,    land, 1,065 acres valued at $10.5 million, was of little or
forest industries, and private landowners; manages a       no discernable interest to FS. In one case, lands on a
comprehensive forest research program; and applies         developed subdivision near Reno had steep slopes and
conservation measures to preserve wilderness and           severely limited access, surrounded by a housing
manage recreation use. For FY 1998, total FS funding       subdivision and an industrial park, and were, therefore,
was about $3.2 billion, with receipts generated from       of limited value to FS. Upon our notification, FS
timber sales and other activities reported at              immediately disclaimed title to the property and officially
$975 million.                                              notified the private party of its decision.

Serious Deficiencies Found in Forest Land                  Controls were also absent in the appraisal process. FS
Adjustment Program                                         lands staff let private parties override the safeguards
                                                           against excessive valuations, and FS acquired private
Our audit identified a serious breakdown of controls in    lands whose appraised values were not based on
all phases of the Humboldt-Toiyabe National Forest land    credible evidence. We questioned the FS acceptance
adjustment program. The forest administers all national    of three land appraisals that were based on speculative
forest lands in the State of Nevada and was a major        assumptions that overvalued non-Federal lands by
beneficiary of Federal land exchanges proposed by          $8.8 million. One of the transactions involved 458 acres
private parties and developers wanting to acquire highly   of private lands called Deer Creek in the Mount
desirable Federal lands in the Las Vegas metropolitan      Charleston area near Las Vegas. Although the land
area. FS management allowed private parties to exert       was in extremely steep, mountainous terrain with
undue influence over the direction and outcome of          avalanche chutes on the slopes of the property, the
almost all large-value land exchanges at the forest. We    private party’s appraiser determined that the property’s
questioned accomplished and proposed land exchange         highest and best use was as a housing subdivision.
transactions for 7,029 acres of Federal and non-Federal
lands, valued at $27.9 million.                            FS regional and forest lands staff compromised the
                                                           independence of FS appraisers and weakened controls
An FS bargaining team, formed to establish the value of    over the coordination of land transactions with the
property being acquired by the Government,                 Bureau of Land Management (BLM), jeopardizing, in
disregarded guidelines provided by the FS Washington,      one land exchange, $2.1 million in water rights and
D.C., office and the Office of the General Counsel         $19.8 million worth of land that had not been properly
(OGC) and allowed the private parties to control the       cleared of encumbrances.
bargaining process. The team excluded the
participation of Federal appraisers and accepted           Finally, our audit questioned the integrity of FS lands
uncorroborated valuations by an appraiser                  staff dealing with private parties. We identified the
recommended by the private party, resulting in a loss of   improper conduct of one FS management employee
$5.9 million to the Government. In addition, the forest    who received gifts, gratuities, and entertainment from
entered into an improper agreement that gave a private     private parties doing business with FS. We also noted
party exclusive marketing rights to 850 acres of forest    that the region did not track the outside interests of key
lands near Reno, Nevada, valued at $6.5 million, for       FS lands personnel involved in approving multimillion-
which the private party had not identified any private     dollar exchanges.
lands to be offered in exchange.
                                                           In response to our audit, both the FS Chief and the
                                                           Under Secretary for Natural Resources and
                                                           Environment have taken immediate actions to
                                                           implement needed controls in this area.




                                                                                                                    23
These lands near Reno were of limited value because they     The Deer Creek property contains avalanche chutes and
had poor access and were surrounded by a housing             steep terrain. OIG photo.
subdivision and industrial park. OIG photo.

FS Is in Jeopardy of Losing Management Control               A private land developer offered the Zephyr Cove lands
Over Lands Recently Acquired for $38 Million                 and building improvements to FS in exchange for
                                                             Federal lands of equal value managed by BLM in the
As part of our ongoing audit of land transactions at FS’     Las Vegas, Nevada, area. On June 30, 1997, the
Pacific Southwest regional office, we identified a serious   developer improperly transferred the FS-owned
problem relating to the treatment of building                improvements to a private party for cash and gratuities
improvements in a land exchange transaction at the           at an estimated value of $3 million. The improvements
Lake Tahoe Basin Management Unit in Nevada. The              included a 10,000-square-foot mansion, a caretaker’s
exchange involves a 46-acre parcel on Lake Tahoe             cottage, and a four-car covered garage.
known as Zephyr Cove. The property, appraised at
$38 million, has approximately 3,000 feet of sandy           Shortly after the sale of the improvements, the private
beach, a small wetland area, meadow, creek, and a            party locked the gates of the driveway leading to the
10,000-square-foot mansion and other buildings.              mansion, effectively precluding access to this publicly
                                                             owned land. The private party also hired a caretaker to
                                                             watch the grounds and to keep the public away from
                                                             property belonging to the American taxpayer.




This is a beachfront view of Zephyr Cove. OIG photo.         A private party locked the gates to Zephyr Cove, limiting public
                                                             access. OIG photo.


24
In January 1998, the private party submitted an             Management of the backlog could not be readily
application to FS to operate an upscale “bed and            assessed, in part, because the budgeting, allocation,
breakfast” and conference center at Zephyr Cove. The        and expenditure of maintenance funds occur within the
private party proposed using all 46 acres of public lands   framework of program activity and cannot be specifically
to install gazebos, swimming pools, picnic areas, and       identified. We also found that FS had not yet initiated
tennis courts for its private, paying guests. The           the process to capture deferred maintenance costs as
application does not include any provision for general      required by Federal accounting standards for FY 1998
public access to the beaches nor does it provide for        financial statements. We concluded that FS’ manage-
general public access for the entire FS acreage. The        ment of maintenance could be greatly enhanced if it
private party has also posted “private property” signs on   expanded its strategic plan per the Government
FS lands surrounding the improvements.                      Performance and Results Act (GPRA) to specifically
                                                            include maintenance.
Within a few months of the $38 million acquisition, FS
management control over its newly acquired lands is         We recommended FS establish a common definition for
now seriously compromised by the development plans          deferred maintenance and a reliable, documented
of a second private party possessing the building           method to compile deferred maintenance data. We also
improvements.                                               recommended that maintenance be classified as an
                                                            expanded budget line item to enhance accountability. In
In response to an FS request, OGC issued a legal            addition, we recommended that FS expedite the
opinion concerning the ownership of the building            compilation of maintenance data to fulfill the new
improvements on Zephyr Cove. The OGC opinion                accounting standard and expand its GPRA plan to
stated that FS is the legal owner of the building           specifically include all significant components of
improvements and that the developer had no authority        maintenance activity.
or right to sell and transfer FS-owned improvements to
the private party.                                          FS concurred with all of the recommendations in the
                                                            report, but the proposed corrective actions were
To preclude further deterioration of FS’ control of the     inadequate to achieve management decision. We are
Zephyr Cove lands, it is imperative that FS immediately     working with the agency to resolve these issues.
take aggressive action to assert its ownership of the
property and all its improvements in coordination with      Grants to Nonprofit Organizations (NPO)
OGC and the U.S. Department of Justice.                     Ineffectively Managed

FS Estimates of Its Maintenance Backlog                     FS did not effectively manage grant agreements totaling
Unsupported                                                 about $11.9 million ($7.8 million in Federal grant funds
                                                            plus about $4.1 million in required matching funds) to
In response to a request from the House Committee on        the eight NPO’s that we reviewed. As a result,
Appropriations, Subcommittee on Interior and Related        approximately $1.3 million in grant awards to the NPO’s
Agencies, we performed a review of FS’ maintenance          was not in compliance with authorizing statutes; about
backlog, also referred to as “deferred maintenance,”        $4.9 million is subject to recovery (pending further
reported by the agency to be $7 to $8 billion. We found     investigations by FS) because Federal grants were not
that FS had no system or systematic way to compile          properly matched by three NPO’s; over $200,000 in
maintenance backlog information, and FS had not             interest costs was incurred by the Federal Government
prescribed a common definition as to what constituted       because funds were advanced in excess of needs to all
deferred maintenance. Although we were unable to            eight NPO’s; approximately $315,000 in unallowable
attest to reported backlog amounts, we did have enough      costs was paid to five NPO’s; and over $970,000 in
information regarding certain segments of the backlog       funds was not deobligated after the grant period expired
to conclude that the information was not reliable. The      for one NPO.
$5 to $6 billion for road maintenance, for example, was
formulated via an unsupported mathematical
extrapolation.




                                                                                                                  25
We recommended that FS design and implement
national procedures to require approving officials to
ensure that (1) only properly prepared assistance
agreements are approved for NPO’s, (2) matching fund
requirements are met, (3) only funds needed within
30 days are advanced to NPO’s, and (4) costs claimed
for reimbursement by NPO’s are proper and supported.
We also recommended that FS recover the improperly
issued grant funds and excess interest costs identified.
In addition, we recommended that FS review all other
grant and cooperative agreements with NPO’s, recover
any advance funds not needed within 30 days, and
recover all interest earned by NPO’s with grant funds.
The agency agreed with the findings and
recommendations and initiated corrective action.




26
Rural Development


Rural Development programs are designed to meet the         Rural Development has agreed with the findings
diverse needs of rural communities, to help them obtain     presented and, after consultation with OGC, will
the financial and technical assistance needed to            implement our recommendations.
improve the quality of life in rural America, and to help
individuals and businesses compete in the global            CPA Admits to RRH Management Fraud
marketplace. These programs consist of a variety of
loan, loan guarantee, and grant programs, plus              In Champaign, Illinois, a prominent local CPA was
technical assistance, cooperative development, and          sentenced to a 3-year term of probation, with 5 months
rural housing. Rural Development loan programs, with        of monitored home confinement; fined $10,000; and
an outstanding portfolio of approximately $77.7 billion,    ordered to pay $25,000 in restitution after he pled guilty
are delivered through a national office for each agency,    to making false statements to Rural Development. Our
47 Rural Development State offices, and a network of        investigation disclosed that the individual, acting as an
other field offices.                                        RRH management agent, submitted false statements in
                                                            order to collect rent subsidies for tenants who resided in
                                                            an apartment building he managed. Civil litigation in the
 RURAL HOUSING SERVICE (RHS)
                                                            matter is ongoing.

Financial Misconduct Adversely Affected a                   Rural Housing Owners Plead Guilty to Conversion
Multifamily Housing Project
                                                            Two owners/managers of a Boyne City, Michigan, Rural
The Vermont Rural Development State office requested        Development project pled guilty to converting
that we perform an audit of an RRH borrower it              mortgaged property and submitting false statements,
suspected was misusing project revenue. Our analysis        and they will be placed in pretrial diversion for 1 year
disclosed that the borrower did not comply with             and have agreed to debarment for 3 years. The
requirements of his loan agreement or Rural                 defendants kept two sets of project account ledgers to
Development regulations. We concluded that the              conceal their unauthorized withdrawal of project startup
borrower directed a number of ineligible and                monies.
unallowable financial transactions that adversely
affected project operations. Also, management of the        In addition, they charged a total of nearly $38,700 in
reserve account by the borrower and its management          unsupported and unallowable expenses to the project,
company was not adequate; the borrower took improper        some of which went toward the maintenance of their
returns on his investment; and Rural Development did        personal residence. The defendants also obtained
not adequately monitor the reserve account and returns      several private loans, totaling more than $90,000, using
on investment. Specifically, we found the borrower          the project accounts as collateral. An earlier consent
inadequately funded the reserve account from 1983           judgment, a result of a parallel civil proceeding, ordered
through December 1996, took unentitled returns on           the defendants to pay $100,000 to USDA. This
investment of about $167,000, and withdrew $5,100           investigation was conducted jointly with the FBI.
from the reserve account without Rural Development
approval.                                                   Former Manager of RRH Projects Gets Prison Time
                                                            for Embezzlement
We recommended that Rural Development require the
borrower to fund immediately the reserve account to the     The former manager of an RRH management company
required level. We also recommended that Rural              in northern California was sentenced to 1 year 4 months
Development determine the amount of the improper            in State prison, fined $1,200, and ordered to pay
returns on investment for which the borrower should be      $33,400 in restitution after he pled guilty to embezzling
held liable and require him to deposit that amount into     funds from the RRH projects he was managing. Our
the reserve account. In addition, we recommended that       investigation disclosed that the manager embezzled
Rural Development strengthen its controls over its          over $33,000 by using the company’s credit card to
financial reviews of project operations by monitoring       obtain money at casinos in Reno, Nevada, and then
project accounts for accuracy and performing complete       transferring money from the RRH reserve accounts to
and timely reviews of reports submitted by the borrower     pay the credit card company. He also forged the
and certified public accountant (CPA).

                                                                                                                    27
owner’s signature on company checks. The company             We concluded RHS should perform another review of
subsequently replenished the projects’ reserve accounts      the city’s rural status because RHS’ credit study was
after its insurance company settled a claim for the loss.    flawed, the mortgage industry had changed, and
                                                             citizens of Galt had raised concerns about the economic
Congressional Request Spurs Evaluation of Galt               impact of the Grizzly Hollow project on the city. We
Self-Help Housing Program                                    recommended that RHS determine if Galt still meets the
                                                             definition of a rural area. Rural Development disagreed
We performed this audit at the request of members of         with many of our conclusions and recommendations.
Congress who asked us to determine if RHS had                We are working together toward resolution.
complied with agency regulations when it approved
funding for the Grizzly Hollow housing project in Galt,      Director of Self-Help Housing Organization
California. Some citizens of Galt had argued that their      Convicted of Embezzlement
city was not a rural area and, therefore, an inappropriate
location for a 193-home self-help project.                   The director of an Arkansas nonprofit corporation’s self-
                                                             help housing program pled guilty in Federal court to
Galt’s population of 15,400 allows the city to retain a      embezzling Rural Development self-help construction
rural designation if it meets four criteria, including the   loan funds. The director oversaw the program by which
requirement that its low- and moderate-income families       prospective rural homeowners helped build their own
face a serious lack of mortgage credit. We determined        homes in order to reduce costs. However, she diverted
that the credit analysis performed by RHS did not            over $7,000 in loan funds for nonexistent material from
support Galt’s designation as a rural area, because          a fictitious company. She was sentenced to 2 years’
RHS used inaccurate information and relied on                imprisonment and ordered to pay full restitution.
unrealistic assumptions. We found that the available
housing was more affordable than RHS calculated it to        Doctor Pleads Guilty and Pays $21,500 Restitution
be and that mortgage companies were less restrictive
than RHS assumed. Specifically, we noted three               Our investigation in Texas showed that a doctor who
incorrect assumptions.                                       obtained a rural housing loan while in medical school
                                                             and received interest credit assistance later purchased
• RHS reviewed prices for existing housing from an           a second house and rented the Government-financed
  outdated list that showed sales prices up to $160,000      house to a third party. During the annual interviews
  but did not include affordable new homes being             required to renew his loan payment subsidy, the doctor
  constructed in Galt for as low as $95,000.                 failed to disclose both the fact that he no longer lived in
                                                             the house and that he was receiving rental income. The
• RHS used the median sales price of a home                  doctor pled guilty in Federal court to a theft charge and
  ($125,000), rather than the lower end price, to            was placed on 2 years’ probation. He deeded his house
  calculate which borrowers would qualify for private        to the Government and paid $21,500 restitution for the
  financing. At the median price, few moderate-income        unauthorized interest credit assistance received and
  and no very low or low-income borrowers would              other costs incurred by the Government.
  qualify for private financing.

• RHS assumed that lenders would not approve loans
  if the cost of housing exceeded 29 percent of the
  applicant’s income, but we found 15 such lenders
  that would consider such loans.




28
Research, Education, and Economics


 COOPERATIVE STATE RESEARCH,                                 We recommended that CSREES (1) develop
 EDUCATION, AND EXTENSION SERVICE                            procedures to place a hold on grant funds after
 (CSREES)                                                    expiration dates, (2) review all expired grants and
                                                             deobligate residual funds, (3) recover from the
                                                             University of Southern Mississippi $630,000 of
CSREES administers USDA’s extramural research                unallowable costs and deobligate remaining grant
program in support of new and improved agricultural          funds, and (4) establish controls to ensure timely
technology and its transfer to the farming and forestry      submission of contracts and reports. The agency
community. At the direction of Congress, CSREES              agreed with our recommendations, except for the
assists specified educational institutions with Federal      recovery of approximately $300,000 from the University
matching grants for the construction, acquisition, and       of Southern Mississippi.
renovation of buildings, laboratories, and other capital
facilities to enhance agriculture-related research or        Controls Over Matching Requirements Need
educational capabilities. As of September 30, 1997,          Strengthening
CSREES administered 108 facility projects in various
stages of completion with Federal funding of                 Our review of grants to Prairie View A&M University
approximately $658 million.                                  (PVA&M) revealed that PVA&M did not maintain written
                                                             records to substantiate its matching commitments of
CSREES Needs To Improve Controls Over Research               Federal grant disbursements of about $1.2 million for
Facility Construction Grants                                 seven grants awarded from FY’s 1995 through 1997.
                                                             There were no records to support an additional
During our review of CSREES’ administration of               $300,000 volunteered by the university for two
research facilities construction grants, we visited          additional Federal grants approximating $700,000.
11 institutions and found that the institutions adequately
monitored construction and compliance with applicable        Because PVA&M did not submit annual reports and
laws, completed facilities were well maintained and          timely final reports, CSREES did not know whether the
used as intended, financial and administrative records       institution was matching its fund requirements during a
were satisfactory, and grant matching requirements           grant’s life. PVA&M was delinquent in submitting
were met.                                                    reports for 15 grants. Ten of these were over 1 year
                                                             delinquent with an average delinquency of about
However, our review of 43 project files with awards to       39 months. The 10 PVA&M grants had balances of
31 institutions, totaling about $310 million, showed that    about $115,000 which had not been deobligated.
CSREES did not timely deobligate residual funds of
about $542,000 for 4 projects after completion, and          We recommended that CSREES recover from PVA&M
6 institutions expended almost $2.6 million after the        all Federal grant funds that were not supported with the
grants’ expiration dates. Also, 7 institutions did not       required matching contributions, require grant recipients
obtain prior approval of project architect, design, and      to submit required reports on time, provide training to
construction contracts totaling $31.7 million;               grant recipients regarding required records
17 institutions with Federal awards of about                 maintenance, obtain final reports for all delinquent
$115.1 million did not submit annual performance             grants over 1 year old, and deobligate any unused grant
progress reports for projects; and 11 institutions with      funds. CSREES agreed with our recommendations.
Federal awards of about $75.1 million did not submit
final performance and financial status reports for
completed projects. These deficiencies diminish
CSREES’ ability to forestall problems.




                                                                                                                   29
Financial, Administrative, and Information
Technology

 EQUAL EMPLOYMENT OPPORTUNITY                                  We estimate that if CR continues to operate under its
                                                               current methods and at its current rate, the backlog of
                                                               complaints existing on November 1, 1997, will not be
The Office of Civil Rights Does Not Ensure                     completely resolved for at least another year. Figure 3
Complainants a Timely Hearing                                  summarizes the key areas for which our
                                                               recommendations were made and in which the
The Assistant Secretary for Administration asked us to         uncorrected deficiencies persist.
perform a followup review of the operations of USDA’s
Office of Civil Rights (CR), the office responsible for        Most conspicuous among the uncorrected problems is
resolving complaints made against the Department for           continuing disorder within CR. The data base CR uses
alleged civil rights violations in the administration of its   to report the status of cases is full of errors, and the files
programs. During four previous reviews of the                  it keeps to store needed documentation are slovenly
Department’s civil rights program complaints system,           and unmanaged. Forty complaint files could not be
we determined that the system was not functioning              found, and another 130 complaints that were listed in
properly and that the Department had amassed a                 USDA agency files were not recorded in CR’s data
growing backlog of complaints which required                   base. Management controls were so poor that we could
immediate attention. Although CR itself could not              not render an opinion on the quality of CR’s
accurately determine how large the backlog was at              investigations and adjudications.
the time of our first review, it later identified 1,088
outstanding unresolved complaints before                       Of equal significance is the absence of written policy
November 1, 1997.                                              and procedures. CR has not revised Departmental
                                                               policy to ensure it complies with civil rights laws and to
Our past reviews had questioned the productivity of CR;        establish the framework of its own activities. Over the
we had found a disaffected staff and a leadership              space of 20 months, CR has produced nothing to lay
vacuum. Little was being accomplished by USDA                  the foundation for good management controls.
agencies to respond to citizen complaints of
discrimination, and little was done by CR to manage the        The absence of formal procedures and accurate records
resolution process. Some complaints in CR’s backlog            raises questions about due care within the complaints
had languished for over 2 years. After our February            resolution process. We found critical quality control
1997 report, CR made the resolution of its backlog its         steps missing at every stage of the process. Staff
first priority.                                                members with little training and less experience were
                                                               assigned as adjudicators to render decisions on
Our current review disclosed that the backlog of               whether discrimination occurred. Legal staff members
complaints of civil rights violations, although reduced,       with OGC, who review CR’s decisions for legal
still stands at 616 cases as of September 11, 1998. Of         sufficiency, have had to return over half of the decisions
these 616 cases, 80 are under investigation, 310 are           because they were based on incomplete data or faulty
awaiting adjudication, 23 are undergoing a legal               analysis. Almost half of the 616 cases of the unresolved
sufficiency review, and 103 are pending closure. The           backlog had become bottlenecked in the adjudication
remaining 100 cases still await a preliminary analysis.        unit.
The backlog is not being resolved at a faster rate             CR’s office morale is low. The many reorganizations the
because CR itself has not attained the efficiency it           complaints resolution staff has undergone, the high
needs to systematically reduce the case load. Few of           turnover the staff has experienced within the last
the deficiencies we noted in our previous reviews have         several years, and the inadequate training afforded both
been corrected. The office is still in disarray, providing     managers and staff members have left the staff
no decisive leadership and making little attempt to            unfocused and without clear direction. In turn, low
correct past mistakes. Over the last 20 months, CR has         morale possibly has contributed to a lack of productivity.
made virtually no progress in implementing the                 CR’s data base shows that since January 1997, CR has
corrective actions we determined to be essential to the        closed only 19 cases through adjudication, 8 of which
viability of its operations.                                   were not even investigated by CR. Due to such
                                                               inefficiency, complainants are being denied a timely
                                                               hearing of their civil rights complaints.

30
Figure 3
Areas of Deficiency Previously Noted by OIG and Still Uncorrected

                                                           Office of Inspector General Evaluation Phases

                                              Alert            I             II          Memo            IV           V
  Issue                                      2/25/97        2/27/97       9/29/97       12/18/97      3/04/98      9/30/98

  Review State foreclosure actions              X              0              0             0            0             0

  Send letters of acknowledgement
  (Completed November 1997)                                    X              0

  Develop and maintain a data base                             X             ✓              ✓            ✓             ✓

  Evaluate each agency’s civil
  rights staff                                                 X              0             0            0             0

  Clean case files                                             X              0             0            0             0

  Clear backlog                                                X              0             0            0             0

  Publish regulations                                          X              0             0            0             0

  Reconcile case files with USDA
  agencies                                                     X              0             0            0             0

  Write plans for compliance
  reviews                                                      X              0             0            0             0

  Follow up on isolated instances
  of potential discrimination                                                               X            0             0

  Find lost case files                                         X              0             0            0             0

  Use aging reports                                            X              0             0            0             0

  Train investigators                                                        X              0            0             0

X = Condition originally noted and recommendation made. 0 = Condition continues. ✓ = Corrective action taken but not
adequately implemented.


Furthermore, CR does not exercise the full scope of its            Also disturbing were the number of discrepancies we
authority. CR has concentrated its oversight on                    found between staff members’ reports and the actual
federally conducted programs; it has largely ignored a             level of their performance. We found that information
host of federally assisted programs (e.g., crop                    provided to the Secretary about the number of open and
insurance, research grants) in which complaints of                 closed cases was wholly inaccurate. This information
discrimination may have been made.                                 was repeated at congressional hearings and other
                                                                   public forums.




                                                                                                                             31
We concluded that in order to complete the backlog of          (RTB). The Department and FS received disclaimers of
cases expeditiously, the Secretary needs to transfer           opinion, FNS and Rural Development received qualified
resolution of the backlog to a complaints resolution task      opinions, and CCC and RTB received unqualified
force, composed of seasoned adjudicators and well-             opinions.
qualified civil rights personnel from Federal agencies
outside USDA. The task force should have full authority        USDA’s Consolidated Financial Statements: Disclaimer
to review and resolve all complaints, both new and             of Opinion
backlogged. The task force should also perform a case-
by-case, document-by-document sweep of the case                We were unable to express an opinion on the
files to restore retrievability to the information contained   Department’s financial statements for FY 1997, largely
in the files.                                                  because of the numerous material internal control
                                                               weaknesses at the Office of the Chief Financial Officer
To increase CR’s efficiency in the long term, the              (OCFO)/NFC which we have previously reported.
Secretary should create an Assistant Secretary of Civil        OCFO has generally agreed with our recommendations,
Rights with subcabinet-level status. Concurrently, the         and plans have been made to fix identified problems.
CR Director should emphasize hiring managers who               Some corrective actions have been taken, but much
have a solid background in civil rights and a good             remains to be done.
knowledge of Department programs.
                                                               The continuing delay in implementing the Department’s
We also recommend that the Secretary require CR to             new accounting system, the Foundation Financial
(1) issue needed operational policies and procedures           Information System (FFIS), has had a significant impact
within a 2-month timeframe; (2) resolve, also within           on USDA financial operations and will continue to
2 months, all other recommendations that we made in            impact future operations. Without FFIS, USDA must
our previous reports but that CR has failed to                 rely on the OCFO/NFC Central Accounting System
implement; (3) keep open all cases resolved through            (CAS); however, as we have reported since 1992, the
settlement agreements so the agreements may be                 many significant problems in CAS diminish the reliability
tracked; and (4) institute other operational                   and integrity of this data. For example, because of
improvements that will ensure the efficient operation of       numerous material internal control weaknesses with the
the civil rights functions within the Department and           OCFO/NFC reconciliation procedures, we estimated the
ensure due care in the resolution of all civil rights          number of disbursement exceptions to be about 55,000
complaints, as well as a timely hearing for all                with an absolute difference of about $7.1 billion between
complainants.                                                  CAS and the U.S. Department of the Treasury
                                                               (Treasury).
 FINANCIAL MANAGEMENT
                                                               Most of the FFIS problems could be attributed to the
                                                               premature implementation of three FS regions on
USDA is required by the Chief Financial Officers Act and       October 1, 1997. To address our concerns, OCFO, in
the Government Management Reform Act to prepare                conjunction with a working group led by the Secretary’s
and audit financial statements for all Departmental            office, deferred the implementation of the remaining FS
accounts and activities. Financial statements for USDA         regions until problems with FFIS have been resolved.
are generated from six separate systems operated by            In addition, a new leadership team was brought in to
various USDA agencies.                                         manage the project, and a Statement of Work was
                                                               entered into with a contractor to provide an independent
Financial Statement Audits                                     assessment of the current FFIS approach and
                                                               alternatives to correct accounting deficiencies at NFC.
We completed audits of the FY 1997 financial                   While we believe the actions taken by OCFO will be
statements of the Department (consolidated), the Forest        beneficial, we remain concerned with various aspects of
Service (FS), the Food and Nutrition Service (FNS), the        the implementation of FFIS.
Rural Development mission area, the Commodity Credit
Corporation (CCC), and the Rural Telephone Bank




32
Forest Service: Disclaimer of Opinion                         agencies. For FY 1998, FNS planned to focus
                                                              management reviews on recipient claims using this
Because of the absence of an integrated general ledger        guidance and to complete the evaluation of the
and supporting subsidiary records, along with significant     accuracy of State agency balances reported.
financial systems weaknesses, we were unable to
express an opinion on the FS financial statements for         Rural Development: Qualified Opinion
FY 1997.
                                                              We issued Rural Development a qualified opinion
Our review of financial statement line items prepared by      because the mission area could not adequately
FS disclosed the need for accounting adjustments              substantiate the value of the Government’s investment
totaling over $1.9 billion due to errors and omissions in     in its outstanding direct and guaranteed loans. Since
the initial preparation of the line items. FS corrected the   FY 1994, we have reported problems with the mission
errors and omissions before finalizing the financial          area’s procedures for establishing and reestimating loan
statements. In addition, we found that internal controls      subsidy costs. Early this year, Rural Development
over the total fund balances with Treasury and the            established a task force to address these longstanding
property, plant, and equipment accounts, which                problems. However, the corrective action plan is not
combined represented 98.3 percent ($11.6 billion) of the      scheduled for completion until September 1999. We
reported $11.8 billion in assets held by FS, were not         are monitoring the agency’s progress in resolving these
sufficient to ensure that account balances were reliable.     material weaknesses.

FS has taken significant steps toward improving its           CCC: Unqualified Opinion
financial accountability. However, much work remains
before FS can produce complete, reliable, timely, and         Our report expresses an unqualified opinion in that
consistent financial statements. In April 1998, the           CCC’s financial statements presented fairly its financial
Secretary of Agriculture and the FS Chief announced           position and results of operation, in accordance with
major actions to address the problems, to include             generally accepted accounting principles for Federal
establishing clear accountability, ensuring necessary         agencies. However, although a new accounting system
resources, and hiring key leadership.                         under development should provide enhancements and
                                                              refinements to the current financial processes, we
FNS: Qualified Opinion                                        continue to find that increased oversight and
                                                              supervision of accounting and budgeting operations are
Our qualified opinion was the result of FNS’ inability to     needed to timely and efficiently prepare the financial
substantiate the reported amount of FSP recipient             statements, congressional reports, and related
claims against households. During FY 1997, FNS made           supporting data.
progress in improving the agency’s financial recording
and reporting processes, but several material internal        We recommended that CCC strengthen its financial
control weaknesses continue to warrant corrective             accounting procedures and operations. We also
action. FNS has not corrected its material internal           included recommendations on more effective use and
control weakness related to food stamp recipient claims;      improvement of the management control review
as a result, we were unable to assess the                     process. CCC generally agreed with our
reasonableness of the more than $942.3 million                recommendations and is continuing to improve its
included in the gross accounts receivable, non-Federal,       financial management.
balance for FSP in FY 1997.
                                                              RTB: Unqualified Opinion
FNS made significant commitments in FY 1997 to
address the longstanding issue with food stamp                We issued RTB an unqualified opinion. We concluded
recipient claims and issued comprehensive review and          that the financial statements presented fairly its financial
self-assessment guidance to regional offices and State        position and results of operations. We continued to find,
                                                              however, that RTB needs to improve controls for
                                                              establishing and reestimating loan subsidy costs.




                                                                                                                       33
FS “Financial Health Initiative” Yields                     • Cash and Deposit Accounts - Overall, maintenance
Improvements, More Needed                                     of working capital fund accounts, budget clearing
                                                              accounts, and suspense deposit accounts has
In July 1996, immediately following issuance of the           improved since FY 1997, but frequent review and
FY 1995 FS financial audit, FS, OIG, and OCFO began           adjustment are required.
a cooperative task force effort to plan and implement
improvements in FS’ financial management and                Accounting processes and accounts payable and
accountability. In March 1997, OIG began monitoring         accounts receivable are particularly burdensome and
FS’ implementation of financial health action plans at      error prone because the existing accounting system
regional, forest, and research station field units.         lacks automated and integrated subsidiary ledgers. In
Overall, the FS units we visited were actively              addition, many of the errors are caused by
implementing the national financial health action plan.     nonaccountant employees receiving insufficient
However, significant work remained to be done, and, in      supervisory oversight and on-the-job training in applying
the current systems environment, maintaining accurate       financial health guide instructions. Improved
and current accounting data requires constant staff work    information on transactions executed by operating
at all field accounting units.                              personnel needs to be provided to fiscal staff so that
                                                            transactions can be properly recorded. Improved
In June 1997, FS issued a financial health desk guide       accounting processes will take time to develop and
which was developed by the task force and, based on         apply in FS’ decentralized management structure. Also,
input from users, from OIG, and from OCFO, updated it       critical to FS success is implementation of a fully
in January 1998. Many of the accounting errors we           integrated standard general ledger accounting system.
noted should be corrected as FS personnel gain              Until a new system is fully implemented, FS’ accounting
experience applying the instructions contained in the       processes will continue to be error prone and consume
desk guide.                                                 significant staff resources.

In FY 1997, our initial work identified major issue areas   FS Retroactive Redistribution Process Poses Great
involving property, plant, and equipment; accounts          Risk That Funds May Be Misused
payable and accounts receivable; management codes;
and fire caches. During FY 1998, FS and OIG                 We reviewed FS’ control of funds, specifically as it
continued to work together to improve FS’ financial         relates to the retroactive redistribution of incurred costs
accounting processes and data quality. Our initial          that occurs at NFC, to address the prospective impact
FY 1998 consulting visits to seven FS field accounting      the process could have on the burgeoning FFIS and to
units yielded the following observations:                   evaluate management controls over the redistribution
                                                            process.
• Real Property - Physical inventories of real property
  (excluding road assets) were progressing well;            We found that FS shifted charged costs at least
  however, validations of real property capitalized costs   269,000 times in FY 1997, the preponderance
  and acquisition dates, as well as the completion of       (125,000 occurrences) of which took place in the fourth
  property documentation files, were not progressing in     quarter. We also found that controls had not been
  line with FS’ goals.                                      adequately prescribed to ensure that the actions were
                                                            properly authorized, approved, justified, or documented.
• Personal Property - Physical inventories of all           Accordingly, there was insufficient assurance that the
  personal properties were not completed in FY 1997,        shifting of incurred costs from one account to another
  as planned by FS. Also, capitalized costs for             was done in a manner consistent with appropriations
  38 percent of the properties we tested were incorrect     law. We also found that the implementation of FFIS
  or inadequately documented.                               was unduly delayed and the costs of the project
                                                            significantly increased because retroactive redistribution
• Accounts Payable/Accounts Receivable - Both               could not be made to run on the system.
  continued to be highly error prone.




34
The timing of these changes in charged costs                We performed a review to determine the accuracy of the
epitomizes the potential risk and enforces the notion       quarterly data being reported to OMB by OCIO. We
that the actions were undertaken to shift funding to        found that the Department had not adopted a common
those accounts which could absorb the charges, from         definition for the term “systems.” This resulted in
those where they had been incurred. The retroactive         agencies reporting minor applications as mission critical
redistribution process provides a great risk to adherence   systems, which significantly overstated the number of
with appropriations law, as shifts in charges could cross   mission critical systems within the Department. For
appropriations lines and the receiving appropriation        example, after a standard definition of “systems” was
account could be exceeded. We did not seek to               adopted, FS reduced its number of mission critical
establish whether deliberate violations had occurred.       systems from 452 to 17. OCIO originally reported
                                                            1,319 mission critical systems to OMB; however, as of
We recommended that FS eliminate the current                June 30, 1998, OCIO revised the number to 657.
capability to shift the charges of incurred expenditures
and rescind plans to automate the process in FFIS. We       We also found that OCIO’s reported number of
also recommended that FS implement controls to              compliant systems overstated the Department’s actual
ensure that all revisions to accounting transactions are    progress toward meeting Year 2000 compliance. We
proper.                                                     found that many of the systems being reported as
                                                            compliant required no renovation work, which indicated
FS concurred with the findings and recommendations          they were already Year 2000 compliant. For example,
regarding FFIS and the implementation of management         OCIO reported that 539 (41 percent) of the
controls. The agency cited, however, that it was not        Department’s 1,319 mission critical systems were Year
feasible to modify NFC’s Central Accounting System          2000 compliant as of February 1998. However, our
and thereby eliminate the capability to retroactively       review showed that 327 of these systems were
redistribute funds. FS proposed an alternative action       originally compliant or were not affected by date fields in
through policy, procedures, and monitoring which would      their programming code. As of June 30, 1998, OCIO
greatly restrict management code changes. We have           revised the report to show that 375 systems were
requested additional information about these proposed       compliant.
controls before coming to management decision.
                                                            OCIO officials agreed with our findings and have
                                                            implemented corrective actions. Our review work is
 INFORMATION TECHNOLOGY
                                                            continuing. We have completed reviews at NFC, NITC,
                                                            and Rural Development. Additional reviews are under
Department Progressing With “Year 2000”                     way or planned at FS, the National Agricultural Statistics
Conversion Project                                          Service, APHIS, FSA, and FNS.

Most Departmental computer systems are not
programmed to perform calculations based on the year         AUDITS OF CONTRACTS
2000. These systems recognize such a data entry only
as 1900. If by the year 2000 the systems are not            Questioned Costs of $192,000 on FS Contract
converted to accept “2000,” either they will fail to        Settlement Proposal
perform any calculations based on that year or will
provide inaccurate information. This situation has          The audit reviewed an FS contract modification
become known as the “Year 2000” crisis.                     proposal resulting from a Government-ordered change
                                                            in construction from a conventional heating and
The Office of Management and Budget (OMB) set the           ventilating system to a system capable of using onsite
target date for all Federal systems to become converted     geothermal resources. The audit of the $630,000
by March 30, 1999. The Office of the Chief Information      proposal identified questioned costs of $192,000
Officer (OCIO) serves as the Department’s focal point       consisting of unsupported overhead costs and
for addressing conversion issues.                           unallowable costs due to related-party transactions and
                                                            interest financing. The FS contracting officer used the
                                                            audit findings to eliminate the questionable items from



                                                                                                                    35
the settlement proposal and issued a final determination     OVERSIGHT OF NON-FEDERAL AUDITORS
on the matter.

Review of the Department’s Mail Operations                  OIG monitors the work performed by non-Federal
Substantiated Overcharges                                   auditors for agencies of the Department and takes
                                                            appropriate steps to ensure that their work complies
At the request of the Office of Operations’ (OO)            with professional audit standards. We oversee the
contracting officer, we performed a review of the blanket   audits of State and local governments for which USDA
purchase agreement and subsequent contract with a           has been assigned single audit cognizance and provide
private company for mail services at the USDA               technical assistance when needed. In addition, OIG
headquarters complex. OO asked us to verify whether         commonly participates in quality control reviews, led by
the contractor had, as suspected, overcharged the           other assigned cognizant Federal audit organizations, of
Government.                                                 State agencies administering major USDA programs.

We confirmed that the contractor had overcharged the        Single Audits
Department by at least $250,000 by charging for
(1) 40 hours of work per week when only 37.5 hours          During this reporting period, we issued 24 audit reports
were performed, (2) holidays not permitted by the           covering areas over which we have been assigned
contract, (3) a labor category not included in the          cognizance or where large amounts of USDA funds
contract, and (4) hours not supported by documentation.     have been expended. As a result of one of these single
                                                            audits, we were notified by FNS that it had received a
OO’s management control deficiencies allowed the            check of nearly $2 million for questioned costs for three
contractor’s overcharges to remain undetected for           prior Connecticut single audits performed. During
16 months. During the course of our review, the             FY 1996, Connecticut received over $295 million in
contract came up for renewal. The Department elected        USDA funds.
not to exercise the contract option year.

We recommended that OO recover the overpayment to
the contractor. OO agreed and has initiated the
recoupment process.




36
Employee Integrity Investigations


A top priority for OIG is the investigation of serious        Three NRCS Employees Guilty of Accepting Bribes
allegations of employee misconduct, including conflicts       and Gratuities
of interest, misuse of official position for personal gain,
and the misuse or theft of Government property and            In July 1994, a tropical storm struck southern Georgia,
money. During the past 6 months, our investigations           causing serious flooding and millions of dollars in
into these types of matters resulted in 14 convictions of     damage. As a result, NRCS negotiated and funded
current or former USDA employees and 36 personnel             numerous watershed repair contracts under the
actions, including reprimands, removals, suspensions,         Emergency Watershed Protection Program (EWPP).
and resignations. The following are examples of some          After we received confidential information from a private
of the investigations that yielded results during the past    sector contractor, our 18-month investigation developed
6 months.                                                     evidence showing that two NRCS employees who were
                                                              responsible for managing EWPP contracts accepted
Employee Sentenced in Embezzlement Case                       cash bribes from a contractor in exchange for special
                                                              considerations in obtaining EWPP contracts. A third
A Louisiana Rural Development county office employee          employee arranged for a contractor doing business with
pled guilty in Federal court to embezzling and                NRCS to perform construction work on personally
misapplying over $82,000 in rural housing loan                owned land. The cost of this work was then improperly
payments she had received in her office. She was              billed to USDA. Between July and September 1998, the
sentenced to serve 6 months’ imprisonment, to be              three employees entered guilty pleas in U.S. District
followed by 4 months’ home confinement. She was also          Court, Middle District of Georgia, to violations resulting
fined $10,000 and ordered to pay nearly $24,350               from their acceptance of bribes and gratuities. One
restitution. The employee resigned soon after we              employee was fined and placed on probation, and
initiated our investigation.                                  resigned from NRCS. The other two employees are
                                                              currently on indefinite suspension; they stated in their
                                                              plea bargains that they would resign from their positions
                                                              and are awaiting sentencing.




                                                                                                                     37
Statistical Data


  AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives follow this table.


 Audits Pending Agency Action

                                                                                                  Amount With
                                                                               Total Value          No Mgmt.
                                                                               at Issuance          Decision
Agency             Date Issued                    Title of Report              (in dollars)        (in dollars)

CR                  09/29/97                  1. Farm Loan Programs -                   0                   0
                                                 Civil Rights Complaint
                                                 System (50801-3-HQ)

                    03/04/98                  1. Followup on Civil                      0                   0
                                                 Rights Recommendations
                                                 (50801-5-HQ)

CSREES              03/27/97                  2. Use of 4-H Program                 5,633                   0
                                                 Funds - University of
                                                 Illinois (13011-1-Ch)*

                    03/31/98                  3. Use of Grant Funds by         1,364,560              857,325
                                                 Langston University
                                                 (13011-1-Te)

                    03/31/98                  4. National Research Initiative 32,757,862           32,757,862
                                                 Competitive Grants Program
                                                 (13601-1-At)

FAS                 12/02/96                  5. Evaluation of the Fund for 5,855,622               5,853,589
                                                 Democracy and Development
                                                 (07801-4-Te)*

FNS                 03/21/97                  6. Establishment and             1,908,988            1,908,988
                                                 Collection of Food
                                                 Stamp Claims
                                                 (27002-2-Te)*

                    07/08/97                  7. Reinvestment of              50,150,541           30,497,946
                                                 Quality Control
                                                 Penalties (27099-4-At)*

                    08/25/97                  8. National School Lunch        31,200,000           31,200,000
                                                 Program Verification
                                                 of Applications in
                                                 Illinois (27010-11-Ch)*


38
                                                                          Amount With
                                                         Total Value        No Mgmt.
                                                         at Issuance        Decision
Agency   Date Issued       Title of Report               (in dollars)      (in dollars)

          09/25/97      9. Strategic Monitoring of               0                 0
                           the Electronic Benefits
                           Transfer System in Illinois
                           (27099-11-Ch)*

          09/30/97     10. Food Stamp Program -                  0                 0
                           Reporting Accuracy of
                           Claims Activity
                           (27601-12-Ch)*

          03/30/98     11. New York City                  2,047,988        2,047,988
                           Case File Documentation
                           (27010-12-Hy)

FS        10/27/92     12. Historic Aircraft             35,260,665        1,079,189
                           Exchange Program
                           (08097-2-At)*

          07/18/96     13. FY 1995 FS Financial     1,150,183,750       1,150,183,750
                           Statements (08401-1-At)*

          09/30/96     13. Real and Personal                     0                 0
                           Property Issues
                           (08801-3-At)*

          02/11/98     14. Forest Service Grants          1,248,595        1,247,824
                           to Nonprofit
                           Organizations
                           (08801-1-Te)

FSA       09/18/95     15. Management of the             75,175,410          909,437
                           Dade County, FL, FSA
                           Office (03006-1-At)*

          03/15/96     16. Wool and Mohair                2,072,102        1,177,675
                           Payment Limitation,
                           Concho County, TX
                           (03099-2-Te)*

          03/29/96     17. Texas Agricultural              964,878           964,878
                           Mediation Program
                           (03801-15-Te)*

          03/29/96     18. Cash/Share Lease               1,076,557           18,911
                           Provisions
                           (03801-2-Te)*



                                                                                        39
                                                                        Amount With
                                                         Total Value      No Mgmt.
                                                         at Issuance      Decision
Agency   Date Issued       Title of Report               (in dollars)    (in dollars)

          05/02/96     19. Disaster Assistance           2,177,640       2,145,533
                           Program - 1994,
                           Thomas County, GA
                           (03006-13-At)*

          03/04/97     20. State-Administered            1,174,624       1,174,624
                           Mediation Programs
                           (03801-23-Te)*

          08/27/97     21. Operator Compliance With         63,909          63,909
                           Payment Eligibility and/
                           or Limitation Provisions
                           in South Dakota
                           (03006-5-KC)*

          09/29/97     22. Peanut Price Support         46,704,388      46,704,388
                           Program
                           (03601-6-At)*

          02/24/98     23. Implementation of the       127,679,250         225,050
                           Beginning Farmer
                           Program
                           (03601-9-KC)

          03/05/98     24. Emergency Disaster Loan         111,026         111,026
                           Program - Mississippi
                           (03601-7-At)

          03/10/98     25. Emergency Disaster Loan         661,870         661,870
                           Eligibility
                           (03601-22-Te)

          03/18/98     26. Noninsured Crop Disaster        190,320               0
                           Assistance Payments for
                           1996 Crop Losses in
                           Florida (03601-27-Te)

          03/31/98     27. Reorganization of Payment       542,807         542,807
                           Limitation in Hildago
                           County, TX
                           (03601-23-Te)

FSIS      05/23/97     28. Controls Over the                     0               0
                           Export of Meat and
                           Poultry Products
                           (24099-1-Te)*



40
                                                                                       Amount With
                                                                        Total Value      No Mgmt.
                                                                        at Issuance      Decision
Agency          Date Issued                Title of Report              (in dollars)    (in dollars)

NRCS             03/30/98              29. Conservation Reserve                 0               0
                                           Program Acreage Enroll-
                                           ments - Signup 16
                                           (50601-6-KC)

Office of        02/27/98              30. Rio Grande Valley                    0               0
Community                                  Empowerment Zone - Texas
Development                                (34801-2-Te)

OCFO             03/25/98              31. Review of Controls in the       27,259          27,259
                                           Payroll/Personnel and Time
                                           and Attendance System -
                                           Phase I (50099-0011-FM)

RBS              03/31/97              32. Intermediary Relending        3,602,796      3,602,795
                                           Program (34601-1-Te)*

RHS              03/26/98              33. Evaluation of Tenant            67,477          17,073
                                           Income Verification
                                           Process
                                           (04801-1-KC)

RMA              09/30/97              34. Reinsured Companies’                 0               0
                                           APH Self-Reviews
                                           (05099-1-Te)*

                 09/30/97              35. Crop Insurance on            15,082,744     15,082,744
                                           Fresh Market Tomatoes
                                           (05099-1-At)*

                 11/25/97              36. Crop Insurance Claims          726,057         726,057
                                           in the Midwest
                                           (05601-1-Ch)

                 03/03/98              37. Transfer of CAT Policies             0               0
                                           to Reinsured Companies
                                           (05099-1-KC)


 Audits Pending Judicial, Legal, or Investigative Proceeding

AARC             09/30/96              38. AARC Cooperative                     0               0
Corporation                                Agreement With Agro-
                                           Fibers, Inc.
                                           (34099-1-At)*




                                                                                                    41
                                                                      Amount With
                                                       Total Value      No Mgmt.
                                                       at Issuance      Decision
Agency   Date Issued       Title of Report             (in dollars)    (in dollars)

FNS       09/22/97     39. Child and Adult Care           56,296          56,296
                           Food Program - Sponsor
                           Abuses (27601-7-KC)*

FS        03/31/97     40. Research Cooperative          469,000         469,000
                           and Cost Reimbursable
                           Agreements (08601-18-SF)*

FSA       09/30/93     41. Disaster Program,           5,273,795       1,482,759
                           Nonprogram Crops,
                           Mitchell County,
                           GA (03097-2-At)*

          03/02/95     42. Disaster Assistance           359,265         359,265
                           Program, Jackson
                           County, FL
                           (03099-158-At)*

          03/31/95     43. Disaster Assistance           484,972         364,552
                           Program, 1993 Nonpro-
                           gram Crops, Yuba County,
                           CA (03600-26-SF)*

          09/07/95     44. Large Operators’              165,069         165,069
                           Compliance With Payment
                           Limitation Provisions
                           in Stephenson County,
                           IL, and Rock County, WI
                           (03099-8-KC)*

          09/07/95     45. A&B Professional              628,976         628,976
                           Consulting, Inc.
                           (03004-1-At)*

          09/28/95     46. Disaster Assistance         1,805,828       1,805,828
                           Payments, Lauderdale,
                           TN (03006-4-At)*

          01/02/96     47. Crop Disaster -             2,469,829       2,418,167
                           Brooks/Jim Hogg,
                           TX (03006-1-Te)*

          09/18/96     48. Emergency Feed                626,182         115,425
                           Program in Texas
                           (03601-7-Te)*




42
                                                                                     Amount With
                                                                      Total Value      No Mgmt.
                                                                      at Issuance      Decision
Agency                   Date Issued       Title of Report            (in dollars)    (in dollars)

                           09/30/96    49. 1994 Disaster Assis-       2,666,383       2,660,573
                                           tance Program - Maine
                                           (03601-1-Hy)*

                           03/27/97    50. Emergency Disaster           614,490         280,000
                                           Loan Eligibility in
                                           Arkansas (03099-13-Te)*

                           12/04/97    51. Emergency Disaster Loan      797,696         620,666
                                           Program in California
                                           (03601-8-SF)

RHS                        05/02/96    52. RRH Project Operations -     235,498         235,498
                                           Cato Company, Michigan
                                           (04010-12-Ch)*

*Reported in last semiannual report.




                                                                                                  43
 Audits Without Management Decision - Narrative

1. Farm Loan Programs - Civil Rights Complaint              In February 1998, OIG issued a management alert to
   System, Issued September 29, 1997, and                   the Under Secretary for Research, Education, and
   Followup on Civil Rights Recommendations,                Economics elevating the findings of our report to obtain
   Issued March 4, 1998                                     his position on Schedule A coverage. As a result, the
                                                            Under Secretary directed the CSREES Administrator to
We continue to audit CR activities and are finding that     accept the application of civil service coverage to
issues reported in the above-referenced reports are         Schedule A extension employees, disclose fully the
recurring. We are working with Department officials to      pertinent facts and information on these positions to
craft solutions that will address the recurring problems.   MSPB, inform all CES directors of the protections
                                                            afforded to Schedule A appointees, and prevent
2. Use of 4-H Program Funds - University of                 prohibited personnel practices to include protections
   Illinois, Issued March 27, 1997                          from adverse actions against whistleblowers.
                                                            CSREES’s response, however, was not acceptable to
After having participated on a team that identified         reach management decisions on the recommendations.
members of a county 4-H volunteer committee who had         Subsequently, the Department’s Office of Human
diverted club funds to their own organization, two          Resources Management issued a statement that the
Schedule A, joint Federal-State employees of the            Schedule A appointees are joint Federal and State
University of Illinois Cooperative Extension Service        employees who are entitled to civil service and
(CES), were removed from their positions and given          whistleblower protections. We are currently working
notice that their employment would be terminated. We        with the Under Secretary to resolve the differences
recommended that Illinois CES be required to suspend        between the Department’s official position and the
its personnel actions against these two Schedule A          agency’s actions, including the need for the Under
appointees and that CSREES monitor the situation to         Secretary and CSREES to work with the State CES
ensure that any rights due these employees under the        partners to resolve the dual status of these Schedule A
Merit Service Protection Act are honored. Finally, we       appointees.
recommended that CSREES clarify and disseminate its
position regarding the legal rights and protection of       3. Use of Grant Funds by Langston University,
Federal appointees to all CES directors.                       Issued March 31, 1998

The Office of the General Counsel (OGC) advised the         After we reported that a former director of research and
agency that the CES Schedule A positions were               extension at Langston University had misused up to
covered under the 1990 law extending coverage to            $1.2 million of CSREES grant funds, CSREES agreed
Schedule A excepted-service positions. OGC                  to require the university to replace any funds that the
concluded that, specifically in the case of the two         university could not justify within Federal funding
Schedule A appointees, the provisions of the act            standards and the criteria for these projects. We
covering due process, appeal rights, and whistleblower      continue to work with the agency to reach an agreement
protections applied. CSREES officials stated they will      on the amount that the university must replace.
implement all recommendations except those relating to
the dissemination of the OGC opinion of Schedule A          4. National Research Initiative Competitive Grants
appointees’ employment rights and our recommended              Program (NRICGP), Issued March 31, 1998
intervention in the prohibited personnel actions at the
university. The university contends that Federal civil      The audit disclosed that CSREES’ process for awarding
service provisions of due process and whistleblower         grants favors large institutions and researchers
protection are not applicable to actions taken by the       previously awarded NRICGP grants, that there appears
university against State employees who are also             to be a direct relation between the institutional
Schedule A appointees. The university has agreed to         affiliations of peer review panel members and the
defer further actions pending a decision by the Merit       institutions receiving awards, and that more than
Systems Protection Board (MSPB) and has reassigned          60 percent of the approximately $32 million for
one of the Schedule A appointees and retracted the          Strengthening Program funds awarded from FY’s 1994
termination letter.

44
through 1996 did not fully meet NRICGP objectives.         State agency change its policy and classify all future
Management decisions have not been reached for our         referral cases as inadvertent household error claims.
eight recommendations. We are withholding our              To address these matters, FNS officials decided to seek
response to CSREES’ latest proposed action while           guidance from the Federal Accounting Standards
OGC completes an opinion.                                  Advisory Board; however, FNS now is seeking
                                                           alternative solutions. We cannot reach a management
5. Evaluation of the Fund for Democracy and                decision until FNS advises us of planned corrective
   Development (FDD), Issued December 2, 1996              actions.

OIG recommended that FAS collect $2,163,390 from           7. Reinvestment of Quality Control Penalties,
FDD for its failure to account for donated commodities        Issued July 8, 1997
and its agent’s misappropriation of donated
commodities. Although the donation agreement               We questioned the eligibility of reinvestment projects in
provides that the cooperating sponsor will be liable to    nine States and costs charged to other eligible projects.
CCC for any use of the commodities or sales proceeds       FNS disagreed with some questioned costs, is in the
that is inconsistent with the donation agreement, the      process of assessing the eligibility of the remaining
General Sales Manager believes that CCC did not            costs, and is processing fiscal settlements with the
intend to make the cooperating sponsor an insurer          respective States as appropriate. Management
against any unauthorized use of the commodities,           decision is pending settlement of the questioned costs
regardless of the circumstances relating to any such       and assessments against three of the nine States.
unauthorized use. OIG believes that if accountability is
not established for the donated commodities, program       8. National School Lunch Program (NSLP)
losses may even escalate. We also recommended that            Verification of Applications in Illinois,
FAS determine the proper disposition of $3.6 million in       Issued August 25, 1997
sales proceeds from donated commodities because of
the auditee’s noncompliance with its operating plan.       We recommended that FNS require the Illinois State
                                                           agency to monitor verification efforts of its school food
Although CCC has established an account receivable,        authorities (SFA) regarding NSLP applications and take
FAS has not issued demand letters seeking collection of    appropriate followup measures on those which had high
$2,163,390 from FDD. FDD contends it has accounted         error rates. We also recommended that FNS establish
for all the donated commodities. FAS is still reviewing    a threshold for the maximum percentage of errors
the documents provided by FDD; the four recommen-          allowable during the verification process and require
dations relating the monetary exceptions are still open.   additional sampling when that percentage was
                                                           exceeded.
6. Establishment and Collection of Food Stamp
   Claims, Issued March 21, 1997                           FNS responded that the State agencies monitored
                                                           verification activities as part of the Coordinated Review
We reported that the State agency in Texas referred        effort. However, since these reviews are performed
potential fraud claims for investigation before            only every 3 years, we do not believe this is adequate
establishing them as inadvertent household errors in the   oversight, as was evidenced by the high error rates
accounts receivable tracking system. This happened         which we detected. FNS has been unwilling to require
because of a State agency policy that requires delay in    expanded sampling, even for SFA’s whose applications
establishment of a claim until a determination of          have high error rates. FNS did not want to require
intentional program violation is made. As a result,        additional verifications based on the work in only one
outstanding claims valued at over $1.9 million are not     State; it proposed to do a study which would collect data
recorded in the accounts receivable tracking system        from additional States before making a decision.
and reported as a receivable for financial statement       Subsequently, FNS advised that its funding for this
purposes. We recommended that the State agency             project had been transferred to another agency and that
compute the overissuance for all cases referred for        FNS would be unable to do the study. FNS has now
investigation and establish these cases as inadvertent     agreed to contact State agencies and obtain error-rate
household error claims. We also recommended that the       information for major cities to assist in making a



                                                                                                                  45
decision on our recommendations. FNS also believes          that are not supported when the standard is not met.
that the potential savings from any increase in             FNS responded that current regulations require case file
verification requirements should be accurately              documentation to support eligibility and benefit levels.
determined and should be weighed carefully against the      FNS agreed to issue a memorandum to States
increase in administrative burden which it would impose     reiterating this policy and to use financial penalties
on SFA’s.                                                   when States do not comply. However, FNS stated that
                                                            financial penalty guidelines would be too complex to
9. Strategic Monitoring of the Electronic Benefits          develop and reiterated that all case files should be
   Transfer (EBT) System in Illinois, Issued                properly documented.
   September 25, 1997
                                                            We agree that issuing a policy memorandum to remind
Illinois does not monitor the use of food stamp benefits    States of the requirements is needed; however, we
separate from other State-issued benefits on the EBT        continue to believe that additional guidelines should be
card. The State regards an EBT card as “active” if any      implemented. Per our September 22, 1998, meeting
benefit, including a State-issued benefit, is accessed by   with FNS, and our memorandum of September 25,
the recipient. Therefore, unused food stamp benefits        1998, we believe these issues may be resolved, or are
could accrue on the EBT card while the recipient is         close to being resolved, and are working with FNS to
accessing other benefits. Federal regulations require       achieve management decision.
unused food stamp benefits to be expunged after
1 year. Unless food stamp benefit access is tracked         12. Historic Aircraft Exchange Program, Issued
separately, the State is unable to identify whether stamp       October 27, 1992
benefits were accessed. FNS initially disagreed with
our recommendation addressing this issue; however,          We recommended that FS officials resolve ownership
based on subsequent discussions, FNS agreed to              issues involving C-130A and P-3A aircraft that were
reevaluate its position. We continue to work with FNS       improperly exchanged for private aircraft and recover
to achieve management decision.                             ownership of the aircraft as appropriate. The U.S.
                                                            Department of Justice and OGC have recommended
10. Food Stamp Program - Reporting Accuracy of              that FS proceed with action to claim title of the aircraft in
    Claims Activity, Issued September 30, 1997              dispute. FS has agreed to begin actions to claim title to
                                                            the aircraft but, as of September 28, 1998, had not
One issue relating to the establishment of claims by the    formally notified holders of the aircraft. Once FS
States remains unresolved. We recommended FNS               formally begins proceedings to recover the Government
monitor State agencies to ensure that all potential fraud   aircraft, we will be able to reach management decision.
claims are established and entered to the accounts
receivable system in accordance with existing               13. FY 1995 FS Financial Statements, Issued
regulations. This issue, in part, has caused FNS to             July 18, 1996, and Real and Personal Property
receive a qualified opinion to its financial statement          Issues, Issued September 30, 1996
audit. FNS officials decided to seek guidance from the
Federal Accounting Standards Advisory Board;                FS and OIG personnel have been working closely in a
however, FNS now is seeking alternative solutions. We       task force approach to improve FS accounting systems
cannot reach a management decision until FNS advises        and processes and to adopt new accounting standards
us of planned corrective actions as appropriate.            issued by OMB. One primary objective of the task force
                                                            is to enable FS to prepare timely and accurate financial
11. New York City Case File Documentation, Issued           statements and ultimately receive unqualified audit
    March 30, 1998                                          opinions on those statements. FS has begun to
                                                            implement a new real property accounting system and
One recommendation remains open. We                         is working toward converting field offices to the new
recommended that FNS establish a minimum                    Departmental general ledger system. Implementation
acceptable standard for determining compliance with         timeframes for (1) the new general ledger,
case file documentation requirements and establish          (2) improvements in FS accounting subsystems, and
penalties to recover the value of food stamp issuances      (3) new accounting standards will extend into FY 1999.



46
We continue to work closely with FS to ensure that          17. Texas Agricultural Mediation (TAM) Program,
longstanding deficiencies in its accounting systems and         Issued March 29, 1996
controls are eliminated.
                                                            The Texas Attorney General instructed Texas Tech
14. Forest Service Grants to Nonprofit                      University (TTU) officials to deny OIG access to
    Organizations, Issued February 11, 1998                 mediation program records, asserting that such records
                                                            were confidential under Texas law. We have issued
In our audit of the National Forest Foundation (NFF), we    Inspector General subpoenas to obtain the records, and
recommended that FS recover $1.2 million in funds that      litigation in this matter is ongoing.
had not been matched as required by the terms of the
grant agreement. FS disagreed with our recommen-            We identified a potential conflict of interest for three of
dation and proposed to evaluate the financial records of    the four full-time mediation program employees,
NFF to determine if sufficient private donations were       excessive grant reimbursements totaling over $485,000,
available and used to match FS funds. However, to           a TAM official claimed as a full-time employee of the
date, sufficient detailed cost data has not been provided   mediation program who was engaged in numerous
to determine the allowability of the $1.2 million, and we   other time-consuming duties, and questionable charges
continue to recommend that FS recover the amount in         for training.
question.
                                                            We recommended that the FSA Administrator cancel the
15. Management of the Dade County, FL, FSA                  certification of the agricultural mediation program
    Office, Issued September 18, 1995                       administered by TTU and instruct the FSA Texas State
                                                            Executive Director to implement an alternative
We found that eight producers, including a county           mediation program (regulations already provide for such
committee member, received over $850,000 in                 a program) for Texas borrowers. We also recommend-
payments that were improper because the producers’          ed that FSA recover the excessive grant funds, clarify
qualifying gross income exceeded the $2 million limit.      the extent and type of mediation training required to
Also, a county office employee, primarily responsible for   meet the mediation program certification requirement,
administering the disaster assistance program, received     and evaluate the effectiveness of the agricultural loan
questionable payments of over $50,000 based on              mediation program by determining whether grant funds
inaccurate supporting information. We recommended           are being used effectively. We continue to meet with
that FSA recover the excessive payments. We are             the FSA Administrator and other Department officials to
working with FSA officials to reach agreement on the        discuss resolution of these issues.
cases.
                                                            18. Cash/Share Lease Provisions, Issued March 29,
16. Wool and Mohair Payment Limitation, Concho                  1996
    County, TX, Issued March 15, 1996
                                                            We recommended that FSA officials clarify and
We questioned approximately $1.2 million in wool and        consistently apply regulations prohibiting landlords from
mohair price support payments to a family group             using combination leases requiring tenants to pay them
because the producer did not operate as reported to         any Government payments or price support benefits
FSA. Not all of the producers were actively engaged in      earned by the tenant under FSA programs. We also
farming, they were not separate and distinct, and their     recommended that FSA issue specific instructions that
shares of a partnership were not properly reported to       would prohibit landlords from receiving Government
FSA. In addition, another producer’s farming operation      payment or price support benefits earned by their
was not separate and distinct from the partnership. We      tenants. We are working with agency officials to reach
recommended that the agency determine whether the           management decision.
members of the partnership and the other producer
should be combined as one “person” for payment
limitation purposes. We are working with FSA officials
to reach management decision.




                                                                                                                    47
19. Disaster Assistance Program - 1994, Thomas               22. Peanut Price Support Program, Issued
    County, GA, Issued May 2, 1996                               September 29, 1997

We found that 17 producers, involving 2 separate family      We reported that FSA did not assess required penalties
farming operations and 1992 and 1993 payments                against handlers who remitted marketing assessment
totaling $2,145,533, appeared to have participated in        fees late. FSA agreed with the recommendations to
schemes or devices to avoid maximum payment                  assess up to $9,401,964 in penalties for crop-years
limitations. One family farming operation is under           1995 and 1996. However, before the penalties can be
investigation, and FSA has been precluded from taking        assessed, FSA must complete a complex reconciliation
action on these producers until investigative actions are    procedure and verify the fees were remitted late. We
completed. The FSA Georgia State office advised us           are working with FSA to reach management decision
that it was acting on the other family farming operation.    pending FSA’s assessments of the penalties.

20. State-Administered Mediation Programs, Issued            23. Implementation of the Beginning Farmer
    March 4, 1997                                                Program, Issued February 24, 1998

For Texas, Michigan, Minnesota, and North Dakota, we         We reported that FSA has been partially successful in
recommended that FSA recover $2.1 million as a result        implementing the Beginning Farmer Loan Program
of excessive and unsupported claims for reimbursement        (BFLP) but that a significant portion of the BFLP loans
(includes almost $1 million recommended for recovery         were made to borrowers who did not meet the definition
in report No. 03801-15-Te, Texas Agricultural Mediation      of a beginning farmer. We recommended, in part, that
Program). We also recommended that FSA withhold              FSA inform county office personnel of the conditions
FY 1997 and future grant funds until the State agencies      reported and require that coverage of these areas be
provide access to all mediation records needed to            provided in future staff training. In addition, we
evaluate the effectiveness of program operations and         recommended FSA request the guaranteed lender for
use of grant funds. We are working with FSA to reach         one loan to prepare a new promissory note reflecting
management decision.                                         payment terms specified in the conditional commitment.
                                                             As part of the agreed-to corrective action, FSA
21. Operator Compliance With Payment Eligibility             committed to requesting the lender to correct the
    and/or Limitation Provisions in South Dakota,            payment terms for the cited loan. We are working with
    Issued August 27, 1997                                   agency officials to reach management decision.

We reported that a producer, the producer’s spouse,          24. Emergency Disaster Loan Program -
and an associated corporation inaccurately reported              Mississippi, Issued March 5, 1998
their interest in 1996 production flexibility payments and
1995 conservation use for payment acres, bringing into       We reported excessive loan amounts totaling $111,026
question payments totaling $61,459. We recommended           made to borrowers. The FSA State office is in the
that the county committee perform an end-of-year             process of taking appropriate loan-servicing actions to
payment review and determine if the producers adopted        recover the unauthorized assistance.
a scheme or device to evade the payment limitation
provisions. The South Dakota State office agreed to          25. Emergency Disaster Loan Eligibility, Issued
include the entities in its end-of-year reviews. FSA,            March 10, 1998
when conducting the review, determined that the
producer had already provided copies of pertinent            In Oklahoma, contrary to law, 11 borrowers received
documentation to OIG. As a result, OIG provided              catastrophic risk protection (CAT) indemnity payments
copies of requested documents to the South Dakota            or Noninsured Crop Disaster Assistance Program (NAP)
State office in January 1998. We continue to work with       benefits totaling $98,512 along with emergency loan
the agency to reach management decision.                     benefits totaling $459,220 for the same losses. Further,
                                                             all borrowers included in the review provided false or
                                                             inaccurate information, and FSA county office personnel




48
mae errors computing six borrowers’ loans. As a              corrective action plan addressing FSIS/AMS export
cumulative result of the inaccurate information and          inspection procedures, responsibilities, and internal
errors, the borrowers received excess loan funds             controls.
totaling $314,217. Of the 13 borrowers who submitted
false information, 8 have been referred to the               29. Conservation Reserve Program Acreage
U.S. attorney’s Affirmative Civil Enforcement Division for       Enrollments - Signup 16, Issued March 30, 1998
prosecution under the False Claims Act.
                                                             We reported that States experienced problems with
26. Noninsured Crop Disaster Assistance Payments             existing Environmental Benefits Index (EBI) software
    for 1996 Crop Losses in Florida, Issued                  packages. We recommended that NRCS solicit input
    March 18, 1998                                           from each State as to the nature of its problem(s). We
                                                             concur with the actions taken to implement the
We questioned payments of $190,320 because county            recommendation. We can reach management decision
office personnel incorrectly used the county-expected        when NRCS provides documentation of its
yield rather than the approved yield to compute the          implementation. We also reported that NRCS increased
payments. We recommended that action be taken to             the risk of criticism to USDA by awarding producers
recover the cited overpayments and that all other crop-      offering larger tracts of land additional EBI points. We
year 1996 NAP payments be reviewed for accuracy.             recommended that NRCS conduct an analysis to
FSA determined that county office error caused the           determine whether producers have been denied
overpayments, and the finality rule was applied to waive     participation in the Conservation Reserve Program or
collection. A management decision has been reached           other agency programs due to any associated farm size
for all recommendations in the report except for the one     requirements.
recommending a review to verify the accuracy of NAP
payments that were not included in our review.               30. Rio Grande Valley Empowerment Zone - Texas,
                                                                 Issued February 27, 1998
27. Reorganization of Payment Limitation in Hildago
    County, TX, Issued March 31, 1998                        We recommended that Rural Development officials
                                                             ensure that Rio Grande Valley Empowerment Zone
We found that seven members of one family, including a       officials take appropriate action on a grant-specific audit
present county committee member and a former county          of a subrecipient that received over $500,000 in
committee member, did not, as they claimed, operate as       empowerment zone funds and failed to fulfill its
separate producers for crop-years 1996 and 1997, and         contractual obligations. The audit questioned use of
we questioned payments of over $500,000. FSA is              over $282,000 in program funds. We are working with
determining whether the seven family members adopted         Rural Development to ensure there is a proper
a scheme or device. Upon that conclusion, FSA will           accounting for these funds.
need to further address the recommendation and collect
the resultant overpayments.                                  31. Review of Controls in the Payroll/Personnel and
                                                                 Time and Attendance (T&A) System - Phase I,
28. Controls Over the Export of Meat and Poultry                 Issued March 25, 1998
    Products, Issued May 23, 1997
                                                             We reported that additional procedure processes and
FSIS’ current directive precludes FSIS inspectors from       controls were needed to more fully protect the payroll/
opening, inspecting, and verifying the contents of           personnel systems from errors or irregularities and
product containers presented for export unless the           recommended that the Department implement internal
containers appear to be damaged. We believe that the         controls to preclude the weaknesses noted in the report.
absence of such a control constitutes a material internal    Management decision is pending receipt of information
control system weakness of FSIS’ food safety oversight       from the Acting Assistant Secretary for Administration
responsibility. FSIS officials proposed to resolve the       and OCFO advising as to the specific actions that have
matter by transferring the responsibility to AMS.            been taken and/or planned regarding Departmental
However, before we can accept a management                   guidance for payroll/personnel management, redesign
decision, FSIS needs to provide us with its proposed         of T&A business processes, reports management and



                                                                                                                      49
related training, and improvement of controls over the      reached management decisions on three of the six
Voluntary Leave Transfer Program, including related         recommendations and are continuing to work with RMA
timeframes for completion.                                  to reach management decision on the remaining three
                                                            recommendations.
A reply was due July 30, 1998, from Departmental
Administration, and we are working with the audit liaison   35. Crop Insurance on Fresh Market Tomatoes,
for the Acting Assistant Secretary for Administration to        Issued September 30, 1997
obtain and evaluate it to reach management decision on
the outstanding recommendations.                            The audit disclosed that the Fresh Market Tomato Crop
                                                            Insurance Program in Florida has been poorly managed
32. Intermediary Relending Program, Issued                  by the reinsured companies and abused by sales
    March 31, 1997                                          agents, loss adjusters, and producers. Reinsured
                                                            companies paid indemnities for (1) abandoned crops,
We recommended that the Rural Business-Cooperative          (2) losses outside the insured period, (3) crops planted
Service (RBS) notify relenders that 17 loans totaling       on wetlands, and (4) under/nonreported production. We
$1.4 million were for ineligible purposes and initiate      also found two sales agents of reinsured companies
action to recover the loan funds; determine whether         who received almost $400,000 in commissions for crop
another 22 questioned loans totaling $1.6 million met       insurance policies sold to producers in conflict-of-
program guidelines, loan agreements, and workplans;         interest situations. The report included 13 recommen-
and for those loans that did not meet eligibility           dations addressing the problems disclosed. We are
requirements, initiate action to recover the funds from     currently evaluating RMA’s latest response to the audit
the relenders. We also recommended that RBS                 and continue to work with RMA to reach management
determine if five loans totaling $750,000 which involved    decision on the 13 recommendations.
conflicts of interest should be recovered. The agency
reviewed the cited loans; however, proposed actions         36. Crop Insurance Claims in the Midwest, Issued
were insufficient to reach a management decision on all         November 25, 1997
recommendations. We continue to work with the
agency to obtain the information needed to reach a          We reviewed 7 policies, involving 3 producers filing
management decision.                                        12 loss claims on corn, cranberries, potatoes, and
                                                            soybeans. The review disclosed that seven of the
33. Evaluation of Tenant Income Verification                indemnity payments were incorrect. Six of these
    Process, Issued March 26, 1998                          resulted in overpayments, totaling about $725,000,
                                                            because optional units were improperly used to
We recommended that RRH management companies                calculate indemnity payments. The remaining claim
recover improper rental assistance and interest credit      was underpaid $449. We are evaluating RMA’s latest
subsidies from audit sample tenants who inaccurately        response and continue to work with RMA to reach
reported income information. RHS officials have stated      management decision on the audit recommendations.
they have no disagreements with the audit
recommendations and are currently evaluating                37. Transfer of Catastrophic Risk Protection (CAT)
alternatives for implementing corrective action and             Policies to Reinsured Companies, Issued
timeframes for completing those actions.                        March 3, 1998

34. Reinsured Companies’ Actual Production                  Our audit of the first transfer of CAT policies showed
    History (APH) Self-Reviews, September 30, 1997          that RMA, FSA, and private insurance companies did
                                                            not effectively coordinate their activities. Specifically,
We recommended that RMA take action to ensure that          we found that producers did not always receive
APH’s are corrected in all data bases, track and ensure     adequate local agent servicing, the needs of limited
the receipt of APH results, perform tests to determine      resource producers were not addressed, and RMA’s
the accuracy of past results, and establish a system of     evaluation process did not fully assess the effectiveness
rewards and penalties for APH accuracy. We have             of CAT program servicing. RMA concurred with the




50
recommendations but generally proposed or offered           41. Disaster Program, Nonprogram Crops, Mitchell
actions that did not address the recommendations.               County, GA, Issued September 30, 1993
RMA has not responded to the audit since it was issued.
We are continuing to work with RMA to reach                 We found that disaster payments on nonprogram crops,
management decision on the four recommendations             primarily squash, were not proper because producers
that are still open.                                        had reported incorrect or questionable information that
                                                            county staff accepted even though, in many cases,
38. Alternative Agricultural Research and                   other readily available data would have shown that
    Commercialization (AARC) Cooperative                    inaccurate information was provided. FSA officials
    Agreement With AgroFibers, Inc., Issued                 agreed with our recommendations. However, claims
    September 30, 1996                                      cannot be established until all investigative actions are
                                                            complete.
The AARC Corporation awarded $800,000 to a
company to develop, manufacture, and market kenaf           42. Disaster Assistance Program, Jackson County,
(papyrus grass) nonwoven mat products. Our audit                FL, Issued March 2, 1995
disclosed that, after 5 years, the company had only
$100 equity in the business and had misrepresented its      We identified program payments of $359,265 resulting
financial position. Soon after our visit to the site, the   from suspected intentional program violations by
plant burned to the ground. The AARC Corporation has        producers. FSA officials agreed with our
taken action to improve its project management and          recommendations. However, claims cannot be
agreed to apply due diligence in future arrangements        established until investigative actions are completed.
with the company. The U.S. attorney recently
concluded that criminal or civil prosection was not         43. Disaster Assistance Program, 1993 Nonprogram
warranted. OIG is currently presenting the case to the          Crops, Yuba County, CA, Issued March 31, 1995
Department of Justice for civil fraud prosecution.
                                                            One recommendation is without management decision.
39. Child and Adult Care Food Program - Sponsor             After two producers had settled with plea agreements,
    Abuses, Issued September 22, 1997                       OIG/Investigations referred the two producers to the
                                                            FSA State office for administrative action.
The sponsor reviewed is under investigation, and we         Subsequently, the county committee determined that
recommended that the sponsor be terminated from the         the producers acted in good faith on a farming
program. FNS concurs with this recommendation;              operation; this decision was affirmed by the FSA State
however, OGC is working with us to determine the            and national offices. However, we strongly disagreed
conditions for termination. FNS will act upon OGC’s         with FSA’s interpretation, and we concluded that, based
decision. We also need to be advised when claims are        on signed statements by the producers, the county
established. FNS can take no action until the               office should have collected all payments on the farming
investigation is complete.                                  operation. After discussing this with a regional counsel
                                                            on May 11, 1998, we referred the issue to OGC for a
40. Research Cooperative and Cost Reimbursable              legal opinion. We are still awaiting a response from
    Agreements, Issued March 31, 1997                       OGC.

We recommended FS recover about $469,000 of                 44. Large Operators’ Compliance With Payment
administrative overhead expenses that had been                  Limitation Provisions in Stephenson County, IL,
incorrectly reimbursed to a university. FS has required         and Rock County, WI, Issued September 7, 1995
a legal review by OGC before determining the corrective
actions it will take. No action will be taken prior to an   We found that a producer and an individual adopted a
OGC opinion regarding this matter.                          scheme to evade application of the maximum payment
                                                            limitation provisions and received excessive payments
                                                            of $165,069. FSA agreed with our recommendations;
                                                            however, claims cannot be established until
                                                            investigative actions are completed.



                                                                                                                   51
45. A&B Professional Consulting, Inc., Issued               49. 1994 Disaster Assistance Program - Maine,
    September 7, 1995                                           Issued September 30, 1996

We identified program payments of $628,976 resulting        The report identified 21 producers who provided
from suspected intentional program violations by            inaccurate information and received excessive disaster
producers. FSA officials agreed with our                    payments of $1.6 million. We also reported that the
recommendations; however, claims cannot be                  State committee, acting without approval, improperly
established until review is completed by the U.S.           established the payment rate and yield used in the
attorney.                                                   computation of 1994 potato disaster payments, resulting
                                                            in Maine producers being overcompensated by
46. Disaster Assistance Payments - Lauderdale, TN,          approximately $887,443. We recommended that the
    Issued September 28, 1995                               agency take steps to recover overpayments in those
                                                            cases for which they were not prohibited from taking
Our review disclosed questionable payments totaling         action pending the conclusion of the investigative
$1,890,622, including $1,523,918 for disaster payments      actions. The agency response indicated concurrence
and $366,704 for other program payments obtained by         with the recommendation, but the agency has
producers who participated in schemes to evade              determined that no action should be taken until the
disaster payment limitation provisions. FSA officials       investigations are complete.
agreed with our recommendations and assembled a
team to review the payments; however, claims cannot         50. Emergency Disaster Loan Eligibility in
be established until investigative actions are completed.       Arkansas, Issued March 27, 1997

47. Crop Disaster - Brooks/Jim Hogg, TX, Issued             This report identified one borrower who falsified
    January 2, 1996                                         information to qualify for excessive loan funds and two
                                                            borrowers who did not qualify for the excessive loans
Twenty-seven cases have been referred for                   due to excessive resources. We also identified nine
investigation for possible criminal prosecution, and we     borrowers where excessive loans were made due to
questioned payments to two producers. We                    agency errors in determining qualified disaster losses.
recommended that FSA take administrative action;            We recommended that FSA take administrative action;
however, claims cannot be established until the             however, claims against the borrower who falsified
investigative actions are completed.                        information cannot be established until the investigative
                                                            actions are completed.
48. Emergency Feed Program in Texas, Issued
    September 18, 1996                                      51. Emergency Disaster Loan Program in California,
                                                                Issued December 4, 1997
We recommended recovery of program overpayments
totaling $214,267 from producers in two counties. The       We reported that several producers in Monterey and
State office has begun corrective action to collect the     Tulare Counties received duplicate emergency loans
overpayments in one of the counties. Due to ongoing         and NAP payments for the same disaster. We
investigations, the State executive director was notified   recommended that the FSA State office instruct all
not to take administrative action against the producers     Agricultural Credit Offices to review their emergency
in the other county because it might interfere with legal   loans and NAP payment records for other producers
actions.                                                    who may have received duplicate benefits and take the
                                                            appropriate corrective actions. The FSA State office
                                                            contends that the recommendations would impose an
                                                            undue hardship on the producers. FSA is seeking
                                                            advice from OGC. The FSA State office informed us on
                                                            August 17, 1998, that OGC is reviewing the matter.




52
52. Rural Rental Housing (RRH) Project
    Operations - Cato Company, Michigan,
    Issued May 2, 1996

The management company charged RRH projects
$215,631 in unsupported and unallowable operating
costs. The unallowable costs included expenditures for
training, travel, bookkeeping fees, and office equipment
purchases. In addition, the management company used
another firm with an undisclosed identity of interest to
purchase supplies and other items for its projects.
These unallowable costs totaled $19,867. We
recommended that the borrower reimburse the projects
for $235,498 in unallowable and unsupported charges
made to RRH projects. In accordance with our
instructions, RHS has suspended corrective action
pending completion of an ongoing investigation.




                                                           53
 Indictments and Convictions

Between April 1 and September 30, 1998, OIG                   Indictments and Convictions
completed 421 investigations. We referred 308 cases           April 1 - September 30, 1998
to Federal, State, and local prosecutors for their
decision.                                                     Agency                  Indictments              Convictions*

During the reporting period, our investigations led to        AMS                           47                        6
488 indictments and 333 convictions. The period of            APHIS                         14                        4
time to obtain court action on an indictment varies           ARS                            0                        1
widely; therefore, the 333 convictions do not necessarily     FAS                            4                        2
relate to the 488 indictments. Fines, recoveries/             FSA                           29                       30
collections, administrative penalties, restitutions, claims   FNS                          334                      254
established, and cost avoidance resulting from our            FS                             0                        2
investigations totaled about $42.8 million.                   FSIS                           4                        6
                                                              GIPSA                          5                        3
The following is a breakdown, by agency, of indictments       NRCS                           1                        1
and convictions for the reporting period.                     RHS                            5                        6
                                                              RMA                            9                        0
                                                              RUS                            8                        0
                                                              SEC                           24                       18
                                                              Other**                        4                        0
                                                                                           ___                      ___
                                                              Totals                       488                      333
                                                              *
                                                                   This category includes pretrial diversions.
                                                              **
                                                                   This category includes cases involving multiple agencies (one
                                                                   indictment) and non-USDA/affiliated agencies (three indictments).




54
 The Office of Inspector General Hotline

The OIG Hotline serves as a national receiving point for
reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement,
and abuse in USDA programs and operations. During
this reporting period, the OIG Hotline received
1,215 complaints, which included allegations of
participant fraud, employee misconduct, and
mismanagement, as well as opinions about USDA
programs. Figure 4 displays the volume and type of the
complaints we received, and figure 5 displays the
disposition of those complaints.


Figure 4                                                     Figure 5

Hotline Complaints                                           Disposition of Complaints
April 1 to September 30, 1998                                April 1 to September 30, 1998
(Total = 1,215)
                                                                          Referred to   Referred to
                                                                          Other Law    OIG  Audit or
                                                                         Enforcement  Investigations Filed Without
                                                  Reprisal    Complaint                 for Review      Referral-
                      Participant                   3         Referred to Agencies          80        Insufficient
                        Fraud                                State Agency     19                      Information
                         771                                      157                                      29



                                                  Bribery
                                                     2
  Waste/                                Health/
Management                              Safety
    96                 Opinion/
            Employee Information          19                   Referred to
            Misconduct                                                                         Referred to
                         148                                 USDA Agencies
               176                                                                            USDA or Other
                                                              for Response
                                                                                         Agencies for Information-
                                                                   326
                                                                            Referred to    No Response Needed
                                                                          FNS for Tracking         252
                                                                                352




                                                                                                               55
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests for the Period April␣ 1 to
 September␣ 30, 1998

Number of FOIA/PA Requests Received             309

Number of FOIA/PA Requests Processed:           305

 Number of Requests Granted in Full       137
 Number of Requests Granted in Part       112
 Number of Requests Not Granted            56

Reasons for Denial:

  No Records Available                 20
  Requests Denied in Full              21
  Referrals                            15
_______________________________________________

Requests for OIG Reports From Congress
  and Other Government Agencies

  Received                            114
  Processed                           113
_______________________________________________

Appeals Processed                                   7

  Appeals Granted                       0
  Appeals Denied in Full                5
  Appeals Denied in Part                2
_______________________________________________

Number of OIG Reports Released                  321
  in Response to Requests

NOTE: A request may involve more than one report.




56
Appendix I


                                            INVENTORY OF AUDIT REPORTS ISSUED
                                             WITH QUESTIONED COSTS AND LOANS

                                                                            DOLLAR VALUES

                                                                     QUESTIONED        UNSUPPORTED *
                                                          NUMBER   COSTS AND LOANS    COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                                  69        $560,012,559          $149,157,565
   DECISION HAD BEEN MADE
   BY SEPTEMBER 30, 1998


B. WHICH WERE ISSUED DURING                                 56          34,200,634            12,612,432
   THIS REPORTING PERIOD

    TOTALS                                                 125        $594,213,193          $161,769,997

C. FOR WHICH A MANAGEMENT                                   50
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

    (1) DOLLAR VALUE OF
        DISALLOWED COSTS

         RECOMMENDED FOR RECOVERY                                      $12,057,372             $860,326

         NOT RECOMMENDED FOR RECOVERY                                  $36,526,447

    (2) DOLLAR VALUE OF                                                132,719,919           123,327,295
        COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                                  75         413,931,298            37,582,376
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

    REPORTS FOR WHICH NO                                    42         381,855,280            25,187,180
    MANAGEMENT DECISION WAS
    MADE WITHIN 6 MONTHS
    OF ISSUANCE

* Unsupported values are included in questioned values.




                                                                                                           57
Appendix II


                           INVENTORY OF AUDIT REPORTS ISSUED
                  WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                    NUMBER       DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT             22        $5,420,425,577
   DECISION HAD BEEN MADE
   BY SEPTEMBER 30, 1998

B. WHICH WERE ISSUED DURING            10         7,331,905,976
   THE REPORTING PERIOD

     TOTALS                            32       $12,752,331,553


C. FOR WHICH A MANAGEMENT              12
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

     (1) DOLLAR VALUE OF                         $5,343,407,301
         DISALLOWED COSTS

     (2) DOLLAR VALUE OF                              1,166,215
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT             20         7,407,758,037
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

     REPORTS FOR WHICH NO              11           76,101,927
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE




58
Appendix III


                                            SUMMARY OF AUDIT REPORTS RELEASED
                                           BETWEEN APRIL 1 AND SEPTEMBER 30, 1998

DURING THE 6-MONTH PERIOD BETWEEN APRIL 1 AND SEPTEMBER 30, 1998, THE OFFICE OF INSPECTOR
GENERAL ISSUED 108 AUDIT REPORTS AND EVALUATIONS, INCLUDING 7 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE REPORTS BY AGENCY:

                                                                      QUESTIONED     UNSUPPORTEDa   FUNDS BE PUT
                                                           REPORTS      COSTS           COSTS          PUT TO
AGENCY                                                     RELEASED   AND LOANS       AND LOANS      BETTER USE

AGRICULTURAL MARKETING SERVICE                                  2        $180,823
AGRICULTURAL RESEARCH SERVICE                                   2
FARM SERVICE AGENCY                                            18       $6,128,518
RURAL HOUSING SERVICE                                           8        $272,467       $190,049           $2,669
RISK MANAGEMENT AGENCY                                          3        $126,787         $7,909
COMMODITY CREDIT CORPORATION                                    1
FOREIGN AGRICULTURAL SERVICE                                    2
FOREST SERVICE                                                 10       $6,115,608     $5,224,986   $7,329,073,925
RURAL UTILITIES SERVICE                                         1
NATURAL RESOURCES CONSERVATION
  SERVICE                                                       3          $17,728                       $974,127
COOPERATIVE STATE RESEARCH, EDUCATION,                          1       $1,239,314     $1,239,314        $185,669
  AND EXTENSION SERVICE
OFFICE OF OPERATIONS                                            1                                        $249,866
FOOD AND NUTRITION SERVICE                                     24      $16,090,629     $3,093,185        $802,677
ANIMAL AND PLANT HEALTH                                         1
  INSPECTION SERVICE
RURAL BUSINESS-COOPERATIVE SERVICE                              2
MULTIAGENCY                                                    28       $4,028,760     $2,856,989        $617,043
CIVIL RIGHTS                                                    1

TOTALS                                                        108      $34,200,634    $12,612,432   $7,331,905,976

TOTAL COMPLETED:
  SINGLE AGENCY AUDIT                                          63
  MULTIAGENCY AUDIT                                            27
  SINGLE AGENCY EVALUATION                                     17
  MULTIAGENCY EVALUATION                                        1

TOTAL RELEASED NATIONWIDE                                     108

                                                       b
TOTAL COMPLETED UNDER CONTRACT                                  7

TOTAL SINGLE AUDIT ISSUED c                                    24
a
    Unsupported values are included in questioned values
b
    Indicates audits performed by others
c
    Indicates audits completed as Single Audit




                                                                                                                59
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 1998

                                                                        QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                              COSTS          COSTS        PUT TO
RELEASE DATE        TITLE                                               AND LOANS      AND LOANS    BETTER USE

AGRICULTURAL MARKETING SERVICE

 01-001-0003-CH     NATIONAL FLUID MILK PROCESSOR PROMOTION
 1998/09/24         PROGRAM
 01-005-0001-HY     PUERTO RICO FEDERAL-STATE AMS INSPECTION               $180,823
 1998/09/10         PROGRAM

     TOTAL: AGRICULTURAL MARKETING SERVICE                         2       $180,823

AGRICULTURAL RESEARCH SERVICE

 02-017-0013-HY     BURNS AND ROE 1997 LABOR REVIEW
 1998/04/27
 02-017-0014-HY     DCAA AUDIT OF BIONETICS CORPORATION FY 1991,
 1998/05/20         1992, AND 1993 INCURRED COSTS

     TOTAL: AGRICULTURAL RESEARCH SERVICE                          2

FARM SERVICE AGENCY

 03-001-0003-AT     ASSESSMENTS FOR STORED TOBACCO
 1998/08/20
 03-004-0008-KC     EMERGENCY DISASTER LOAN ELIGIBILITY                     $96,666
 1998/07/08
 03-006-0009-CH     EMERGENCY DISASTER LOANS - EFFINGHAM CO., IL             $1,330
 1998/05/05
 03-006-0011-CH     EMERGENCY DISASTER LOANS - GRUNDY CO., IL               $43,720
 1998/06/25
 03-006-0012-CH     EMERGENCY DISASTER LOANS - LASALLE CO., IL
 1998/05/04
 03-012-0001-AT     REVIEW OF CCC OPERATIONS
 1998/09/25
 03-099-0020-TE     WOOL AND MOHAIR PAYMENT LIMITATION                   $2,432,120
 1998/09/30         IN VAL VERDE COUNTY, TX
 03-099-0021-TE     1997 FOUNDATION LIVESTOCK RELIEF PROGRAM IN               $785
 1998/08/18         NEW MEXICO
 03-099-0022-TE     REVIEW OF GUARANTEED LOAN APPLICATION IN
 1998/08/21         LINCOLN COUNTY, AR
 03-099-0027-KC     EMERGENCY DISASTER RELIEF ASSISTANCE FOR             $2,543,916
 1998/07/02         LIVESTOCK
 03-099-0029-KC     LIVESTOCK INDEMNITY PROGRAM                            $217,546
 1998/08/24
 03-601-0024-TE     NONINSURED ASSISTANCE PROGRAM PAYMENTS FOR             $109,776
 1998/06/11         1996 CROP YEAR LOSSES
 03-601-0026-TE     NONINSURED CROP DISASTER ASSISTANCE PAYMENTS           $110,551
 1998/06/24         FOR 1996 CROP LOSSES IN GEORGIA
 03-601-0030-TE     EMERGENCY LOAN PROGRAM                                      $1
 1998/09/25
 03-801-0006-CH     EVALUATION OF STATE ADMINISTERED MEDIATION
 1998/04/01         PROGRAM - WISCONSIN
 03-801-0034-TE     EMPLOYEE DEBT FORGIVENESS
 1998/06/30
 03-801-0035-TE     PROCESSING OF A FARM LOAN PROGRAMS DEBT                $572,107
 1998/07/08         SETTLEMENT PROPOSAL - YORK COUNTY, PA
 03-801-0036-TE     REEVES COUNTY OFFICE OPERATIONS - TEXAS
 1998/04/30

     TOTAL: FARM SERVICE AGENCY                                    18    $6,128,518




60
                           AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN APRIL 1 AND SEPTEMBER 30, 1998

                                                                       QUESTIONED    UNSUPPORTED     FUNDS BE
AUDIT NUMBER                                                             COSTS          COSTS         PUT TO
RELEASE DATE      TITLE                                                AND LOANS      AND LOANS     BETTER USE

RURAL HOUSING SERVICE

 04-099-0001-CH   RRH PROJECT OPERATIONS - BETA MANAGEMENT, INC.           $43,985
 1998/04/14
 04-099-0001-SF   FARM LABOR HOUSING AND RENTAL ASSISTANCE
 1998/06/18       SURVEY
 04-099-0004-HY   MOUNTAIN VIEW ESTATES RRH PROJECT - VERMONT             $180,625       $167,408
 1998/08/28
 04-801-0002-AT   RRH TENANT INCOME VERIFICATION                           $22,641        $22,641
 1998/04/28
 04-801-0002-HY   EVALUATION OF RRH TENANT INCOME VERIFICATION             $16,102
 1998/07/30       PROCESS
 04-801-0002-SF   SELF-HELP HOUSING PROGRAM - GRIZZLY HOLLOW
 1998/08/10       PROJECT, GALT, CA
 04-801-0007-SF   RRH PROGRAM - BUCKINGHAM PROPERTIES,                      $8,401
 1998/09/24       FRESNO, CA
 04-801-0013-TE   RRH INITIATIVE - GREEN DEVELOPMENT, OKLAHOMA               $713                       $2,669
 1998/09/10

  TOTAL: RURAL HOUSING SERVICE                                     8      $272,467       $190,049       $2,669

RISK MANAGEMENT AGENCY

 05-099-0001-FM   EVALUATION OF MANAGEMENT AND CONTROL OF
 1998/05/08       SOFTWARE
 05-099-0002-KC   QUALITY CONTROL FOR CROP INSURANCE
 1998/07/14       DETERMINATIONS
 05-601-0001-KC   CROP INSURANCE CLAIMS                                   $126,787         $7,909
 1998/04/10

  TOTAL: RISK MANAGEMENT AGENCY                                    3      $126,787         $7,909

COMMODITY CREDIT CORPORATION

 06-401-0007-FM   FISCAL YEAR 1997 CCC FINANCIAL STATEMENTS
 1998/07/13

  TOTAL: COMMODITY CREDIT CORPORATION                              1

FOREIGN AGRICULTURAL SERVICE

 07-099-0002-HY   SURVEY OF THE SUPPLIER CREDIT GUARANTEE
 1998/07/07       PROGRAM
 07-801-0001-AT   INTERNATIONAL TRADE POLICY PROCEDURES
 1998/08/21

   TOTAL: FOREIGN AGRICULTURAL SERVICE                             2

FOREST SERVICE

 08-003-0002-SF   HUMBOLDT-TOIYABE NATIONAL FOREST                                                  $27,900,000
 1998/08/05       LAND ADJUSTMENT PROGRAM
 08-003-0004-SF   IMPROVEMENTS ON THE ZEPHYR COVE LAND EXCHANGE
 1998/08/26
 08-005-0001-HY   STATE AND PRIVATE FORESTRY GRANTS
 1998/07/31
 08-017-0002-HY   SETA CORPORATION INCURRED COSTS AUDIT
 1998/08/27       FYE 12/31/94 THROUGH 12/31/96




                                                                                                              61
                               AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                        BETWEEN APRIL 1 AND SEPTEMBER 30, 1998

                                                                         QUESTIONED     UNSUPPORTED         FUNDS BE
AUDIT NUMBER                                                               COSTS           COSTS             PUT TO
RELEASE DATE         TITLE                                               AND LOANS       AND LOANS         BETTER USE

 08-017-0009-SF      CONTRACT MODIFICATION PROPOSAL, GASCHLER-HILL          $191,507       $90,188
 1998/06/30          INVESTMENTS, L.L.C.
 08-099-0003-CH      INFRASTRUCTURE MAINTENANCE ON NATIONAL FOREST
 1998/07/09          LANDS
 08-401-0007-AT      FISCAL YEAR 1997 FS FINANCIAL STATEMENTS
 1998/07/13
 08-801-0002-TE      ASSISTANCE AGREEMENTS TO NONPROFIT                   $5,924,101     $5,134,798         $1,173,925
 1998/09/24          ORGANIZATIONS
 08-801-0003-HQ      FOREST SERVICE MAINTENANCE BACKLOG                                                  $7,300,000,000
 1998/06/15
 08-801-0004-HQ      FOREST SERVICE - RETROACTIVE REDISTRIBUTION
 1998/08/19

     TOTAL: FOREST SERVICE                                         10      $6,115,608       $5,224,986   $7,329,073,925

RURAL UTILITIES SERVICE

 09-401-0003-FM      FISCAL YEAR 1997 RUS/RTB
 1998/06/04          FINANCIAL STATEMENT AUDIT

     TOTAL: RURAL UTILITIES SERVICE                                  1

NATURAL RESOURCES CONSERVATION SERVICE

 10-017-0001-HY      CLAIMS AUDIT - CONTI ENTERPRISES                                                         $974,127
 1998/07/30
 10-601-0002-KC      EMERGENCY WATERSHED PROTECTION PROGRAM PILOT
 1998/08/13          FOR THE PURCHASE OF FLOODPLAIN EASEMENTS
 10-801-0002-TE      GREAT PLAINS CONSERVATION PROGRAM EVALUATION            $17,728
 1998/04/10          HOWARD COUNTY, TX

     TOTAL: NATURAL RESOURCES CONSERVATION SERVICE                   3       $17,728                          $974,127

COOPERATIVE STATE RESEARCH, EDUCATION AND EXTENSION SERVICE

 13-011-0002-TE      USE OF CSREES GRANT FUNDS BY PRAIRIE VIEW A&M        $1,239,314       $1,239,314         $185,669
 1998/09/30          UNIVERSITY, PRAIRIE VIEW, TX

     TOTAL: COOPERATIVE STATE RESEARCH, EDUCATION                    1    $1,239,314       $1,239,314         $185,669
            AND EXTENSION SERVICE

OFFICE OF OPERATIONS

 23-801-0001-HQ      REVIEW OF OO’S CONTRACT WITH B&G                                                         $249,866
 1998/08/20          BUILDING MAINTENANCE

      TOTAL: OFFICE OF OPERATIONS                                    1                                        $249,866

FOOD AND NUTRITION SERVICE

 27-002-0012-CH      ACCOUNTABILITY FOR FOOD STAMPS PROVIDED TO             $370,545         $122,989
 1998/05/13          STATE LAW ENFORCEMENT BUREAUS
 27-004-0003-CH      ADMINISTRATION OF THE FOOD STAMP EMPLOYMENT &        $2,921,556
 1998/08/13          TRAINING PROGRAM IN OHIO
 27-004-0006-HY      NUTRITION EDUCATION COSTS CHARGED TO THE WIC         $4,126,822
 1998/09/10          PROGRAM - PUERTO RICO
 27-010-0001-KC      NATIONAL INITIATIVE TO IDENTIFY PROBLEM                 $12,234
 1998/08/19          SPONSORS - CACFP




62
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 1998

                                                                        QUESTIONED     UNSUPPORTED      FUNDS BE
AUDIT NUMBER                                                              COSTS           COSTS          PUT TO
RELEASE DATE      TITLE                                                 AND LOANS       AND LOANS      BETTER USE

 27-010-0006-SF   CACFP - FEEDING ARIZONA KID, INC.,                        $45,409
 1998/04/21       PHOENIX, AZ
 27-010-0007-SF   CACFP - B J ENTERPRISES, INC.,                             $8,322
 1998/06/15       SCOTTSDALE, AZ
 27-010-0009-SF   CACFP - C.B.I.A., INC., PASADENA, CA                     $462,387
 1998/09/23
 27-010-0013-HY   CHILD AND ADULT CARE FOOD PROGRAM - SPONSOR              $353,823
 1998/09/29       ABUSES
 27-010-0013-SF   CACFP - CHILDREN’S SPECTRUM, YUCCA VALLEY,               $231,371
 1998/07/10       CA
 27-010-0015-HY   DISTRICT OF COLUMBIA NSLP                               $7,441,944      $2,950,142
 1998/08/28
 27-010-0020-HY   CACFP - CHILDREN’S BEST INTERESTS, INC.                   $15,756
 1998/09/03
 27-017-0015-HY   ABT ASSOCIATES, INC., 1994 INCURRED COST AUDIT             $1,414          $1,414
 1998/07/30
 27-099-0008-TE   FOOD SERVICE MANAGEMENT COMPANY CONTRACTS
 1998/07/24
 27-099-0009-TE   CACFP - SOUTHEAST ARKANSAS COMMUNITY ACTION                  $322
 1998/07/16       CORP., WARREN, AR
 27-401-0011-HY   FOOD AND NUTRITION SERVICE FISCAL YEAR 1997
 1998/05/21       FINANCIAL STATEMENTS
 27-601-0004-AT   CACFP - CAPE FEAR TUTORING, INC., WILMINGTON,                $355
 1998/09/04       NC
 27-601-0005-AT   STRATEGIC MONITORING OF EBT SYSTEM DEVELOP-               $20,179
 1998/09/22       MENT, PHASE IV - ALABAMA
 27-601-0005-TE   CHILD AND ADULT CARE FOOD PROGRAM IN                      $63,014         $18,640      $736,278
 1998/08/13       LOUISIANA
 27-601-0006-TE   CHILD AND ADULT CARE FOOD PROGRAM IN ARKANSAS
 1998/09/25
 27-601-0010-HY   AUDIT OF THE FOOD STAMP REDEMPTION
 1998/07/22       ACCOUNTABILITY PROGRAM
 27-601-0010-KC   FOOD STAMP STORES SWEEP                                                                 $66,399
 1998/09/29
 27-601-0017-CH   CHILD AND ADULT CARE FOOD PROGRAM - YWCA OF               $14,309
 1998/09/03       CHICAGO, IL
 27-601-0018-CH   CHILD AND ADULT CARE FOOD PROGRAM - HUMAN                    $867
 1998/09/21       DEVELOPMENT CENTER, HARVEY, IL
 27-801-0003-TE   OKLAHOMA EBT SYSTEM DEVELOPMENT
 1998/09/29

  TOTAL: FOOD AND NUTRITION SERVICE                                24    $16,090,629      $3,093,185     $802,677

ANIMAL AND PLANT HEALTH INSPECTION SERVICE

 33-099-0002-CH   MONITORING OF REGISTERED CARRIERS AND
 1998/08/24       INTERMEDIATE HANDLERS

  TOTAL: ANIMAL AND PLANT HEALTH INSPECTION SERVICE                 1

RURAL BUSINESS-COOPERATIVE SERVICE

 34-004-0002-CH   BUSINESS AND INDUSTRY LOAN PROGRAM -
 1998/04/16       MINNESOTA
 34-601-0001-HY   BUSINESS AND INDUSTRY LOANS - FINANCIAL
 1998/07/22       STATEMENT ANALYSIS

    TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                      2




                                                                                                                63
                              AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                       BETWEEN APRIL 1 AND SEPTEMBER 30, 1998

                                                                         QUESTIONED    UNSUPPORTED      FUNDS BE
AUDIT NUMBER                                                               COSTS          COSTS          PUT TO
RELEASE DATE        TITLE                                                AND LOANS      AND LOANS      BETTER USE

MULTIAGENCY

 50-018-0003-TE     DESK REVIEW OF ARKANSAS STATE FORESTRY
 1998/06/22         COMMISSION SINGLE AUDIT FYE 6/30/96
 50-018-0010-SF     A-133 STATE OF HAWAII, DEPARTMENT OF
 1998/07/23         AGRICULTURE, FYE 6/30/97
 50-019-0019-HY     TOWN OF THOMASTON, ME, SINGLE AUDIT, A-128,
 1998/06/17         FYE 6/30/96
 50-020-0031-AT     A-128 AUDIT OF THE STATE OF ALABAMA FOR
 1998/08/20         FYE 9/30/96
 50-020-0039-KC     A-128 STATE OF MONTANA                                    $4,576
 1998/06/11
 50-020-0040-KC     A-128 STANDING ROCK SIOUX FY 1996                         $4,059         $4,059
 1998/06/15
 50-020-0041-KC     A-128 INTERTRIBAL AGRICULTURE COUNCIL                     $2,477         $2,477
 1998/06/11
 50-020-0042-KC     A-128 NORTHERN CHEYENNE TRIBE                             $1,526
 1998/06/11
 50-020-0053-HY     COMMONWEALTH OF VIRGINIA, A-128, SFYE 6/30/96           $114,688
 1998/04/17
 50-020-0054-HY     STATE OF RHODE ISLAND, A-128, SFYE 06/30/96
 1998/04/29
 50-020-0055-HY     STATE OF MAINE, A-128, SFYE 06/30/96                      $1,402
 1998/04/30
 50-020-0056-HY     STATE OF NEW JERSEY, A-128, SFYE 06/30/96                  $769
 1998/04/30
 50-020-0057-HY     STATE OF MARYLAND, A-128, SFYE 06/30/96
 1998/05/11
 50-020-0058-HY     STATE OF VERMONT, A-128, 6/30/96                            $10
 1998/04/17
 50-020-0059-HY     STATE OF DELAWARE, A-128, 6/30/96
 1998/04/17
 50-020-0061-HY     GOVERNMENT OF THE U.S. VIRGIN ISLANDS                   $246,002
 1998/05/27         A-128, SFYE 9/30/94
 50-020-0061-SF     A-133 AUDIT REPORT - GUAM TELEPHONE AUTHORITY
 1998/04/30         FYE 09/30/97
 50-020-0062-HY     STATE OF NEW YORK SINGLE AUDIT, A-128
 1998/05/12         03/31/96
 50-020-0062-SF     A-128 AUDIT - COMMONWEALTH OF THE NORTHERN                $3,386
 1998/06/12         MARIANA ISLANDS - FYE 9/30/95
 50-020-0063-HY     STATE OF CONNECTICUT SINGLE AUDIT, A-128                $167,093
 1998/05/22         SFYE 06/30/96
 50-020-0063-SF     A-128 AUDIT - COMMONWEALTH OF THE NORTHERN                $1,315
 1998/06/12         MARIANA ISLANDS - FYE 9/30/96
 50-020-0064-HY     STATE OF NEW HAMPSHIRE SINGLE AUDIT, A-128              $273,527       $273,527
 1998/07/10         SFYE 06/30/96
 50-020-0065-HY     INDIAN TOWNSHIP TRIBAL GOVERNMENT,                         $762
 1998/06/17         SINGLE AUDIT, A-128, FYE 6/30/96
 50-022-0004-HY     NATIONAL COUNCIL OF AGRICULTURAL EDUCATION,
 1998/06/17         SINGLE AUDIT, A-133, FYE 6/30/96
 50-401-0021-FM     RURAL DEVELOPMENT FINANCIAL STATEMENT AUDIT
 1998/05/29
 50-401-0024-FM     FISCAL YEAR 1997 USDA FINANCIAL STATEMENTS
 1998/07/16
 50-601-0005-AT     FACILITIES CONSTRUCTION GRANTS                        $3,207,168      $2,576,926     $617,043
 1998/09/30
 50-801-0005-FM     MATERIAL CONTROL WEAKNESSES WILL CONTINUE TO
 1998/06/02         IMPACT DEPARTMENTAL FINANCIAL OPERATIONS

     TOTAL: MULTIAGENCY                                             28    $4,028,760      $2,856,989     $617,043




64
                           AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN APRIL 1 AND SEPTEMBER 30, 1998

                                                                  QUESTIONED     UNSUPPORTED        FUNDS BE
 AUDIT NUMBER                                                       COSTS           COSTS            PUT TO
 RELEASE DATE     TITLE                                           AND LOANS       AND LOANS        BETTER USE

CIVIL RIGHTS

 60-801-0001-HQ   EVALUATION OF CR EFFORTS TO REDUCE
 1998/09/30       COMPLAINTS BACKLOG

  TOTAL: CIVIL RIGHTS                                         1

  TOTAL: RELEASE - NATIONWIDE                               108    $34,200,634     $12,612,432   $7,331,905,976




                                                                                                             65
Abbreviations of Organizations
AARC       Alternative Agricultural Research and Commercialization (Corporation)
AMS        Agricultural Marketing Service
APHIS      Animal and Plant Health Inspection Service
ARS        Agricultural Research Service
BLM        Bureau of Land Management
CCC        Commodity Credit Corporation
CES        Cooperative Extension Service
CR         Office of Civil Rights
CSREES     Cooperative State Research, Education, and Extension Service
FAS        Foreign Agricultural Service
FBI        Federal Bureau of Investigation
FCIC       Federal Crop Insurance Corporation
FDD        Fund for Democracy and Development
FmHA       Farmers Home Administration
FNS        Food and Nutrition Service
FS         Forest Service
FSA        Farm Service Agency
FSIS       Food Safety and Inspection Service
GIPSA      Grain Inspection, Packers, and Stockyards Administration
Interpol   International Criminal Police Organization
IRS        Internal Revenue Service
MSPB       Merit Systems Protection Board
NFC        National Finance Center
NFF        National Forest Foundation
NRCS       National Resources Conservation Service
OCFO       Office of the Chief Financial Officer
OCIO       Office of the Chief Information Officer
OGC        Office of the General Counsel
OIG        Office of Inspector General
OMB        Office of Management and Budget
OO         Office of Operations
PRDA       Puerto Rico Department of Agriculture
RBS        Rural Business-Cooperative Service
RHS        Rural Housing Service
RMA        Risk Management Agency
RTB        Rural Telephone Bank
RUS        Rural Utilities Service
SEC        Office of the Secretary
Treasury   U.S. Department of the Treasury
USDA       U.S. Department of Agriculture
